<html>
<title> - GROWING THE FUTURE: OPPORTUNITIES TO SUPPORT DOMESTIC SEAFOOD THROUGH AQUACULTURE</title>
<body><pre>[Senate Hearing 115-655]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 115-655

                          GROWING THE FUTURE:
     OPPORTUNITIES TO SUPPORT DOMESTIC SEAFOOD THROUGH AQUACULTURE

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 30, 2018

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                Available online: http://www.govinfo.gov
       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-301 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4e3e210e2d3b3d3a262b223e602d212360">[email&#160;protected]</a>              
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER WICKER, Mississippi            BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
JAMES INHOFE, Oklahoma               GARY PETERS, Michigan
MIKE LEE, Utah                       TAMMY BALDWIN, Wisconsin
RON JOHNSON, Wisconsin               TAMMY DUCKWORTH, Illinois
SHELLEY MOORE CAPITO, West Virginia  MAGGIE HASSAN, New Hampshire
CORY GARDNER, Colorado               CATHERINE CORTEZ MASTO, Nevada
TODD YOUNG, Indiana                  JON TESTER, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 30, 2018.................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Nelson......................................     3
    Prepared statement...........................................     4
Statement of Senator Klobuchar...................................    21
Statement of Senator Blunt.......................................    23
Statement of Senator Hassan......................................    31
Statement of Senator Blumenthal..................................    34
Statement of Senator Cantwell....................................    36
Statement of Senator Sullivan....................................    37

                               Witnesses

Mark Luecke, Managing Director and CEO, Prairie AquaTech.........     4
    Prepared statement...........................................     6
Kelly Lucas, Ph.D., Director, Thad Cochran Marine Aquaculture 
  Center, University of Southern Mississippi.....................     8
    Prepared statement...........................................     9
Barton Seaver, Director, Sustainable Seafood and Health 
  Initiative, Center for Health and the Global Environment, 
  Harvard T. H. Chan School of Public Health.....................    12
    Prepared statement...........................................    14
Donald B. Kent, President and CEO, Hubbs-SeaWorld Research 
  Institute......................................................    16
    Prepared statement...........................................    18

                               
                               Appendix

Letter dated February 13, 2018 to Hon. John Thune and Hon. Bill 
  Nelson from Kathryn Unger, President; Tony Dal Ponte, Vice 
  President; Max Holtzman, Secretary; and Bill Dewey, Treasurer, 
  Stronger America Through Seafood Campaign......................    41
Prepared Statement of the National Aquaculture Association.......    44
Written Comments by the San Diego Unified Port District..........    49
Response to written questions submitted to Mark Luecke by:
    Hon. Roger F. Wicker.........................................    51
Response to written questions submitted to Dr. Kelly Lucas by:
    Hon. Roger F. Wicker.........................................    52
    Hon. Bill Nelson.............................................    53
    Hon. Catherine Cortez Masto..................................    54
Response to written questions submitted to Barton Seaver by:
    Hon. Roger F. Wicker.........................................    54
    Hon. Bill Nelson.............................................    55
    Hon. Edward Markey...........................................    56
    Hon. Catherine Cortez Masto..................................    57
Response to written questions submitted to Donald B. Kent by:
    Hon. Roger F. Wicker.........................................    57
    Hon. Bill Nelson.............................................    59

 
                          GROWING THE FUTURE:
     OPPORTUNITIES TO SUPPORT DOMESTIC SEAFOOD THROUGH AQUACULTURE

                              ----------                              


                       TUESDAY, JANUARY 30, 2018

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Blunt, Heller, 
Fischer, Gardner, Sullivan, Young, Nelson, Cantwell, Klobuchar, 
Tester, Blumenthal, and Hassan.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning. Thank you all for being here. 
Today we're going to hear from some remarkable leaders in the 
field of aquaculture. They are working to ensure Americans have 
access to safe and sustainably grown seafood from right here at 
home.
    Many of us have benefited from aquaculture, perhaps without 
realizing it. For years, lakes and rivers in my home state of 
South Dakota have been stocked with juvenile game fish raised 
in hatcheries. The town of Spearfish houses the Fish Culture 
Hall of Fame, which documents the history and importance of 
this type of aquaculture. The effort it took to transport fish 
eggs and juvenile fish in the days before refrigeration or 
reliable transportation is truly impressive.
    Thanks to its vast coastlines, the United States has the 
largest Exclusive Economic Zone in the world, and yet we import 
90 percent of our seafood. Half of those imports are not wild 
caught and are farmed in other countries around the world where 
we have little control over the practices and conditions in 
which the seafood is grown or harvested.
    Domestic farming of seafood done in a safe, well-monitored 
manner can provide economic opportunities for all Americans, 
both for our coastal and inland communities. Agricultural 
states like mine can play an important role in providing feed 
for fish farms, and everyone benefits from having increased 
domestic seafood production.
    Currently, however, those seeking to expand the domestic 
farming of seafood often face a confusing regulatory maze. 
Permits for an aquaculture farm may be required from the U.S. 
Army Corps of Engineers, the National Oceanic and Atmospheric 
Administration, the Environmental Protection Agency, the Coast 
Guard, the Department of Agriculture, and the Food and Drug 
Administration. This overlapping web of Federal jurisdiction 
and lengthy, sometimes unending, permitting process can take 10 
years or more, scaring many investors away. Too often, this 
results in entrepreneurs taking their skills, talents, and 
ideas overseas to a more business-friendly environment.
    The United States is a global leader in how to manage wild-
caught fisheries, but we regularly send our expertise, our 
innovation, and our dollars overseas when it comes to 
aquaculture. Rather than buying seafood from a global market 
that has seen repeated instances of labor and environmental 
violations, we should do a better job at home. It's time we 
straighten our Byzantine permitting regime and start growing 
some more fish.
    Our witnesses today are working to promote aquaculture in 
the United States and will share with us some of their ideas to 
reduce the barriers to aquaculture and support innovative 
strategies for food security.
    I'm pleased to welcome a fellow South Dakotan, who is 
bringing South Dakota soy into the fish farming market in a big 
way. Mr. Mark Luecke is the CEO of Prairie AquaTech, a 
technology company that has developed and patented a high-
protein fish feed from soy meal. Prairie AquaTech is based in 
Brookings, South Dakota, and due to high demand in their 
product, they will be breaking ground on a new commercial 
facility this spring that will process 30,000 tons of feed per 
year.
    As a scientist and the Director of the Thad Cochran Marine 
Aquaculture Center at the University of Southern Mississippi, 
Dr. Kelly Lucas will testify about her work overseeing a $25 
million aquaculture facility, which employs cutting-edge 
technology, peer-reviewed research, and hands-on testing to 
grow fish in an environmentally responsible and economically 
feasible manner.
    Mr. Barton Seaver began his career as a celebrity chef here 
in Washington, D.C., where he realized the key role aquaculture 
plays as a sustainable food resource and the importance of 
seafood in a healthy diet. He is the author of seven highly 
regarded books and is an internationally recognized speaker on 
the topic of sustainable seafood and aquaculture.
    Testifying with firsthand experience in aquaculture is Mr. 
Don Kent, who has spent many years working to get a commercial-
scale fish farm up and running off the coast of Southern 
California.
    Aquaculture is the fasting growing food industry in the 
world. If encouraged in the United States, it has the potential 
to create jobs and boost the economy from states like South 
Dakota to the coasts. As Department of Commerce Secretary 
Wilbur Ross has stated, ``This country, with its abundant 
coastline, should not have to import billions of pounds of 
seafood each year.'' Let's harness this opportunity and become 
the world leader in safe and sustainable domestic seafood 
production.
    And with that, I will recognize our Ranking Member, Senator 
Nelson, who knows a little bit about seafood and oceans and 
coastlines and all that sort of thing.
    So, Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. It's especially important to have 
aquaculture that is under conditions that are not just so nasty 
and putrid as we've learned about some of the aquaculture in 
foreign countries.
    The Chairman. Yes.
    Senator Nelson. And, indeed, as the Chairman has said, 
Florida has long been known as the fishing capital, 2,300 miles 
of shore land, by the way, only exceeded by Alaska. But Alaska 
doesn't have a lot of beaches.
    [Laughter.]
    The Chairman. Yes, that's true.
    Senator Nelson. It's fishing-friendly weather, millions of 
dollars of shrimp, snapper, grouper, spiny lobster, stone crabs 
on the plates of Americans' restaurants, and yet there's room 
to grow. America consumes the second largest amount of seafood 
in the world, but 90 percent of it comes from other countries, 
and that's huge. We need to dramatically grow our domestic 
seafood capacity, and I think marine aquaculture should be a 
part of that.
    A variety of fishermen, entrepreneurs, academics, and 
environmental groups have started to come together to figure 
out how we can develop a sustainable aquaculture industry. Just 
last year, a group at the University of Miami received a 
million dollar grant from the National Sea Grant college 
program to advance technology for captive spawning of different 
marine species.
    I've been to the little town of Cedar Key, which back in 
the old days was a flourishing little coastal town, but had 
gone into significant decline economically when seafood had 
lessened as an industry, not unlike the oysters in Apalachicola 
Bay, and what they have done is they have started an 
aquaculture industry in Cedar Key, which is turning things 
around. So the question is: How do we turn all of this interest 
into commercially viable businesses?
    Permitting marine aquaculture is not a simple matter. In 
any aquaculture permitting process, we must ensure that 
consumers are able to distinguish, full disclosure, between 
fish that have been raised in a pen and fish caught by 
commercial fishermen in the wild. We also need to protect our 
environment. Any type of permitting framework needs to ensure 
that we avoid harmful effects of waste, discharge, fish 
disease, chemical and drug use, and invasive species. That is 
why I'm concerned that 90 percent of our consumption in America 
that comes from foreign shores; they are not paying attention 
to these things.
    I want to thank our witnesses for being here today. Donald 
Kent, President and CEO of Hubbs-SeaWorld Research Institute, 
which is a major institution in the South. And we have an 
opportunity as a nation to develop a sector that will bring 
jobs and economic growth, and especially to those little 
fishing communities.
    So I look forward to hearing the results of this panel. And 
you don't have much seafood.
    [Laughter.]
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Florida has long been called the fishing capital of the world. With 
roughly twenty-three hundred miles of shoreline and year-round, 
fishing-friendly weather, Florida is the source of hundreds of millions 
of dollars of shrimp, snapper, grouper, spiny lobster, and stone crab 
on the plates of America's restaurants and households.
    Even so, there is room to grow this important sector of our 
economy. Although America consumes the second largest amount of seafood 
in the world, over ninety percent of it comes from other countries. 
That is a staggering percentage, Mr. Chairman.
    We need to dramatically grow our domestic seafood capacity and I 
think that marine aquaculture should be a part of that.
    A variety of fishermen, entrepreneurs, academics and environmental 
groups have started to come together to figure out how we can develop a 
sustainable U.S. marine aquaculture industry.
    And Florida is leading the pack. Just last year, a group at the 
University of Miami received an almost one million dollar grant from 
the National Sea Grant college program to advance technology for 
captive spawning of different marine species.
    The question is: how do we turn all of this interest into 
commercially viable businesses? This is where we have run into problems 
in the past.
    Permitting marine aquaculture is not a simple matter. In any 
aquaculture permitting process we must ensure that consumers are able 
to distinguish between fish that have been raised in a pen and fish 
caught by commercial fishermen. We also need to protect our 
environment. Any type of permitting framework needs to ensure that we 
avoid harmful effects of waste discharge, fish disease, chemical and 
drug use, escapes and invasive species.
    I also want to thank our witnesses for testifying today, especially 
Donald Kent, President and CEO of the Hubbs-SeaWorld Research 
Institute.
    We have the opportunity as a nation to develop a sector that will 
bring jobs and economic growth to many communities across the Nation. 
We need to take advantage of it. I look forward to hearing our 
witnesses' ideas on the best paths forward.

    The Chairman. But they have a few people that come through 
the cities in Las Vegas and consume a good amount. That's 
right.
    As I mentioned earlier, we've got a great panel. I want to 
welcome Mark Luecke, who is the Managing Director and CEO of 
Prairie AquaTech; Dr. Kelly Lucas, Director of the Marine 
Aquaculture Center at the University of Southern Mississippi; 
Mr. Barton Seaver, who is a Chef and Author, as has been 
pointed out; and Dr. Donald Kent, President and CEO of Hubbs-
Seaworld Research Institute.
    So we'll proceed on my left, and your right, with Mr. 
Luecke. And if you could confine your oral remarks to 5 minutes 
or so, we'll make sure that your entire statement gets made 
part of the hearing record. And we look forward to asking you 
some questions.
    So, Mr. Luecke, please proceed. Welcome.

          STATEMENT OF MARK LUECKE, MANAGING DIRECTOR 
                   AND CEO, PRAIRIE AQUATECH

    Mr. Luecke. Chairman Thune, members of the Committee, thank 
you for the opportunity to speak with you this morning on 
aquaculture, an important topic for each of your states and for 
our country.
    My name is Mark Luecke. I'm the Managing Director and CEO 
of Prairie AquaTech, a specialty feed ingredient and 
aquaculture technology company based in South Dakota. Like many 
of your constituents, I grew up on a small family farm in rural 
America. I graduated from business school and migrated to 
larger markets, pursuing a career in finance and eventually 
becoming an entrepreneur.
    Nine years ago, a group of civic leaders recruited me back 
to my home state to start South Dakota Innovation Partners. We 
had a mission of commercializing research from our Nation's 
land-grant universities where innovation in agriculture was 
occurring. Our national security interest of protecting our 
country's food supply, the process of getting crops from our 
farmers' fields to food on our plates, became our investment 
thesis, more specifically, animal health and nutrition. In 
fact, a milestone that one of our companies will achieve this 
week is becoming the first USDA-licensed vaccine production 
facility in the State of South Dakota. This company, Medgene 
Labs, has a focus on foreign animal diseases that threaten our 
food supply.
    Prairie AquaTech started with research at South Dakota 
State University that received both public and private funding. 
Technology transfer policies based on the Bayh-Dole Act allowed 
us to license the technology and begin the commercialization 
process. We constructed a 30,000-square-foot pilot-scale 
facility with support of the Brookings Economic Development 
Corporation and the Department of Commerce's Economic 
Development Administration. This facility, the AgTech Center 
for Rural Enterprise, has a mission of scaling and de-risking 
university technologies and starting new operating companies to 
support job growth in rural communities.
    With further public and private support from the National 
Science Foundation and the USDA's Small Business Innovation 
Research Programs, the United Soybean Board, South Dakota 
Soybean Alliance, Indiana Soybean Alliance, Soy Aquaculture 
Alliance, and many private investors, Prairie AquaTech 
developed a sustainable plant-based protein ingredient that is 
being used in many locations around the country, including a 
large fish supplier to Whole Foods Market in the State of 
Wisconsin.
    Committee members will appreciate that the seed funding 
provided by the NSF, USDA, and others has put Prairie AquaTech 
in a position to close on $60 million of private funding next 
month. This funding will be used to construct a large protein 
ingredient production facility in rural South Dakota. We take 
our responsibility of generating a return on both public and 
private investment very seriously, and we believe we have done 
so with Prairie AquaTech.
    While Prairie AquaTech is an extraordinary example of the 
effectiveness of public-private partnerships, it is important 
for Committee members to understand that our collective work is 
only beginning. Despite a number of important policy statements 
supporting the growth of a sustainable aquaculture industry in 
the United States, we have made limited progress. Seafood 
remains one of our country's highest trade deficits in the 
natural resource category, while aquaculture remains one of the 
fastest growing segments in the agriculture outside the U.S.
    We believe the reasons for our country's slow growth in 
aquaculture include: one, the unavailability of high-quality 
feed ingredients produced locally, which equates to over 50 
percent of fish production costs; two, the unavailability of 
investment capital to construct more fish production 
facilities; and, three, an inefficient regulatory pathway 
permitting fish production facilities while preserving our 
marine and land-based environments. An opportunity exists to 
improve our position.
    With partner support, Prairie AquaTech has solved the first 
challenge of high-quality feed ingredients produced locally. 
Soybean farmers across many of your states have been searching 
for new and higher value uses of soybean meal, given an 
increase in supply and global competition. The process 
developed by Prairie AquaTech opens a new global market for our 
soybean farmers by eliminating allergenic proteins and sugars 
found in soybean meal that limit inclusion levels in 
aquaculture feed.
    The process also increases phosphorus availability to the 
animal so that fish production facilities no longer discharge 
phosphorus in the surrounding environment. Imagine our country 
feeding local plant-based protein ingredients that are 100 
percent digestible to fish, which have the highest feed 
conversion rate of all animals in an environmentally conscious 
manner. This is a major win for all of our constituents.
    However, we need the Committee's support to increase the 
availability of investment capital to construct more fish 
production facilities in the U.S. Unlike investments in 
software companies, these facilities have a long lead time to 
design, construct, start production, and achieve break-even. 
This long lead time creates risk and prevents investors and 
lenders from supporting these projects.
    We propose a public-private advisory group with a mission 
of recommending economic policies to the Committee that create 
incentives and reduce risks for private investors and lenders 
to support more fish production facilities.
    Similarly, we need the Committee's support to establish an 
efficient regulatory pathway permitting fish production 
facilities in the U.S. Multiple Federal and state agencies 
claim and disclaim jurisdiction in the current regulatory 
pathway, which is unproductive to building an industry. The 
public-private advisory group would further recommend 
regulatory policies supporting entrepreneurs, investors, and 
lenders.
    I appreciate the Committee members' time and attention.
    Thank you very much, Chairman Thune.
    [The prepared statement of Mr. Luecke follows:]

     Prepared Statement of Mark Luecke, Managing Director and CEO, 
                            Prairie AquaTech
    Chairman Thune, Members of the Committee, thank you for the 
opportunity to speak with you this morning on aquaculture--an important 
topic for each of your states, and for our country.
    My name is Mark Luecke. I am the Managing Director and CEO of 
Prairie AquaTech, a specialty feed ingredient and aquaculture 
technology company based in South Dakota. Like many of your 
constituents, I grew up on a small family farm in Rural America. I 
graduated from business school and migrated to larger markets, pursuing 
a career in finance and eventually becoming an entrepreneur. Nine years 
ago, a group of civic leaders recruited me back to my home state to 
start South Dakota Innovation Partners. We had a mission of 
commercializing research from our Nation's land grant universities, 
where innovation in agriculture was occurring. Our national security 
interest of protecting our country's food supply--the process of 
getting crops from our farmers' fields to food on our plates--became 
our investment thesis; more specifically, animal health and nutrition. 
In fact, a milestone that one of our companies will achieve this week 
is becoming the first USDA-licensed vaccine production facility in the 
State of South Dakota. This company, Medgene Labs, has a focus on 
foreign animal diseases that threaten our food supply.
    Prairie AquaTech started with research at South Dakota State 
University that received both public and private funding. Technology 
transfer policies based on the Bayh-Dole Act allowed us to license the 
technology and begin the commercialization process. We constructed a 
30,000 square foot pilot scale facility with support from the Brookings 
Economic Development Corporation and the Department of Commerce's 
Economic Development Administration. This facility, the AgTech Center 
for Rural Enterprise, has a mission of scaling and de-risking 
university technologies and starting new operating companies to support 
job growth in rural communities. With further public and private 
support from the National Science Foundation and USDA's Small Business 
Innovation Research Programs, the United Soybean Board, South Dakota 
Soybean Association, Indiana Soybean Alliance, Soy Aquaculture 
Alliance, and many private investors, Prairie AquaTech developed a 
sustainable, plant-based protein ingredient that is being used in many 
locations around the country, including a large fish supplier to Whole 
Foods Market in the State of Wisconsin. Committee Members will 
appreciate that the seed funding provided by the NSF, USDA, and others 
has put Prairie AquaTech in a position to close on $60 million of 
private funding next month. This funding will be used to construct a 
large protein ingredient production facility in rural South Dakota. We 
take our responsibility of generating a return on both public and 
private investment very seriously, and we believe we have done so with 
Prairie AquaTech.
    While Prairie AquaTech is an extraordinary example of the 
effectiveness of public/private partnerships, it is more important for 
Committee Members to understand that our collective work is only 
beginning. Despite a number of important policy statements supporting 
the growth of a sustainable aquaculture industry in the United States, 
we have made limited progress. Seafood remains one of our country's 
highest trade deficits in the natural resource category, while 
aquaculture remains one of the fastest growing segments in agriculture 
outside the U.S. We believe the reasons for our country's slow growth 
in aquaculture include: (1) the unavailability of high quality feed 
ingredients produced locally, which equates to over 50 percent of fish 
production costs, (2) the unavailability of investment capital to 
construct more fish production facilities, and (3) an inefficient 
regulatory pathway permitting fish production facilities while 
preserving our marine and land-based environments. An opportunity 
exists to improve our position.
    With partner support, Prairie AquaTech has solved the first 
challenge of high quality feed ingredients produced locally. Soybean 
farmers across many of your states have been searching for new and 
higher value uses of soybean meal given an increase in supply and 
global competition. The process developed by Prairie AquaTech opens a 
new global market for our soybean farmers by eliminating allergenic 
proteins and sugars in soybean meal that limit inclusion levels in 
aquaculture feed. The process also increases phosphorus availability to 
the animal so that fish production facilities no longer discharge 
phosphorus into the surrounding environment. Imagine our country 
feeding local, plant-based protein ingredients that are 100 percent 
digestible to fish, which have the highest feed conversion rate of all 
animals, in an environmentally conscious manner--this is a major win 
for all constituents.
    However, we need the Committee's support to increase the 
availability of investment capital to construct more fish production 
facilities in the U.S. Unlike investments in software companies, these 
facilities have a long lead time to design, construct, start 
production, and achieve breakeven. This long lead time creates risk and 
prevents investors and lenders from supporting these projects. We 
propose a public/private advisory group with a mission of recommending 
economic policies to the Committee that create incentives and reduce 
risks for private investors and lenders to support more fish production 
facilities.
    Similarly, we need the Committee's support to establish an 
efficient regulatory pathway permitting fish production facilities in 
the U.S. Multiple Federal and state agencies claim and disclaim 
jurisdiction in the current regulatory pathway, which is unproductive 
to building an industry. The public/private advisory group would 
further recommend regulatory policies supporting entrepreneurs, 
investors, and lenders.
    I appreciate the Committee Members' time and attention; thank you 
very much, Chairman Thune.

    The Chairman. Thank you, Mr. Luecke.
    Dr. Lucas.

           STATEMENT OF KELLY LUCAS, Ph.D., DIRECTOR,

            THAD COCHRAN MARINE AQUACULTURE CENTER,

               UNIVERSITY OF SOUTHERN MISSISSIPPI

    Dr. Lucas. Mr. Chairman and members of the Committee, thank 
you for inviting me to testify before you today. For the 
record, I'm Dr. Kelly Lucas, Director of the Thad Cochran 
Marine Aquaculture Center at the University of Southern 
Mississippi.
    The Center includes approximately 100,000 square feet of 
culture space devoted to environmentally responsible and 
economically feasible marine aquaculture. Our research focuses 
on alleviating the bottlenecks that constrain the production of 
marine species. As you both have mentioned, the United States 
imports over 90 percent of our seafood, and half those imports 
are aquaculture products. We have a $14 billion seafood trade 
deficit.
    With the growing demand for seafood and static wild-capture 
fisheries since the 1990s, aquaculture must continue to grow to 
meet this demand. While the United States has seen an increase 
in aquaculture production, mostly in land-based operations or 
in sheltered nearshore waters, we remain a minor producer. 
Nevertheless, we are a major supplier, an exporter of 
equipment, feed, and advanced technology.
    We have a choice: we can continue to source our new seafood 
supply from abroad, or we can use our expertise to develop the 
domestic capacity to supply our needs. Sourcing from other 
countries means that the United States misses out on the 
opportunity to create jobs that generate wealth in our 
communities and provide safe, local, sustainable seafood 
products. There is a growing consensus among scientists, 
resource managers, and industry that diversification of 
aquaculture, to include offshore farming, could expand our 
capacity for local safe seafood production.
    Coastal communities are recognizing that aquaculture 
presents a sustainable business alternative. These communities 
have the infrastructure, such as the boats and the processing 
plants, the seafood markets, and the working waterfronts, to 
help support operations, and aquaculture can consistently 
supply products to keep these businesses operating.
    Other businesses, such as feed suppliers, equipment 
companies, and repair shops will also grow in these 
communities. Several offshore aquaculture operations use 
advanced remote sensing, unmanned systems, and artificial 
intelligence. This sector of the Blue Economy would also 
continue to expand to meet industry needs.
    Regulatory uncertainty has widely been mentioned as a 
barrier to offshore aquaculture. The Gulf of Mexico Fishery 
Management Plan for Aquaculture, or the Gulf Rule, published in 
January 2016. The plan established a regional permitting 
process to manage offshore aquaculture in an environmentally 
and economically sustainable manner. However, investors have 
expressed concerns regarding the time, actual cost, and 
uncertainty of permit approval. Additional industry concerns 
with the Gulf Rule relate to the permit duration, the size of 
the restricted zones around the permitted areas, and community 
acceptance.
    There is a concern that the Magnuson-Stevens Act is not the 
right tool for regulating aquaculture. Offshore aquaculture 
legislation could provide more certainty for permitting and 
management of aquaculture operations. Diversification of 
seafood products through systems, species, and location will 
help build a more resilient community and will help increase 
production to meet demands.
    The aquaculture industry has made advancements. However, 
there still are challenges and needs. Although we have made 
advancements in fish feed and have reduced reliance on forage 
fish, we should continue to identify alternative sustainable 
feeds for large-scale aquaculture. Improvements in net and cage 
technology have decreased chances of escapes; however, we can 
continue to improve the containment systems with new materials 
and remote monitoring technology. Continued use of unmanned 
systems could further improve safety, provide more timely and 
accurate assessments, and potentially reduce costs.
    The development of hatchery capacity and the refinement of 
culture techniques is vital to industry development. Commercial 
operators need a reliable and consistent source of disease-free 
larval fish. Whereas some larval fish species can be reliably 
supplied, many other species that are high value and fast 
growing lack sufficient research development.
    The use of selective breeding as a tool to increase 
production is far behind the plant and farm animal industries. 
Selective breeding of fish with higher growth rates can 
generally be completed in less time than breeding of farm 
animals. Domestication of new species and offshore aquaculture 
will require monitoring and adaptive health management plans to 
reduce disease and outbreaks.
    Supporting aquaculture development by mechanisms similar to 
those used to support agriculture can help industry grow. The 
agricultural industry grew vastly from public support of 
research occurring at universities, state and Federal 
laboratories, and research stations spread across the Nation to 
bring techniques directly to farmers. Aquaculture can benefit 
from a similar approach of competitive peer-reviewed-based 
research funding and extension funding to advance the 
technology and the development.
    Advancement of aquaculture, especially selective breeding, 
health management, and culture species can take multiple years 
for significant gains, and long-term funding programs will be 
critical to success. Public and private partnerships will also 
be important to help address industry needs, promote industry 
growth, and successfully transfer technology and techniques.
    I appreciate the opportunity to testify before this 
Committee regarding aquaculture. I believe the time is now for 
the United States to become more self-reliant in the production 
of seafood.
    [The prepared statement of Dr. Lucas follows:]

Prepared Statement of Kelly Lucas, Ph.D., Director, Thad Cochran Marine 
         Aquaculture Center, University of Southern Mississippi
    Mr. Chairman and members of the Committee, thank you for inviting 
me to testify before you today. For the record, I am Dr. Kelly Lucas--
Director of the Thad Cochran Marine Aquaculture Center (TCMAC)-
University of Southern Mississippi--Ocean Springs. The Center includes 
approximately 100,000 square feet of culture space devoted to 
environmentally responsible and economically feasible marine 
aquaculture. Our research focuses on alleviating the bottlenecks that 
constrain the production of marine species. We work with government and 
industry to address research that will advance sustainable aquaculture 
on land and in coastal and marine environments. Prior to my appointment 
at USM, I was chief scientific officer for the Mississippi Department 
of Marine Resources, the state agency with regulatory authority for 
managing and conserving coastal and marine resources. My testimony will 
provide both a science and management perspective.
    The United States imports over 90 percent of our seafood and half 
the imports are aquaculture products. We have a $14 billion-dollar 
seafood trade deficit. With a growing demand for seafood and static 
wild capture fisheries since the 1990s, aquaculture must continue to 
grow to meet increasing demand. While the United States has seen an 
increase in aquaculture production, mostly in land-based operations or 
in sheltered nearshore waters, we remain a minor producer. 
Nevertheless, we are a major supplier and exporter of equipment, feed 
and advanced technology. We have a choice. We can continue to source 
new seafood supply from abroad or we can use our expertise to develop 
the domestic capacity to supply our needs. There is a risk in 
continuing to source aquaculture products from abroad. Several of the 
major producer countries do not have the environmental standards we 
have in the United States and they do not have robust disease 
management regulations. Further, they tend to lack transparency which 
creates easy avenues for fraud and quality issues. New supply is also 
often from countries with political uncertainty or geopolitical 
instability that can threaten the supply chain and create food 
insecurity. Importantly, sourcing from other countries means the United 
States misses out on the opportunity to create jobs that generate 
wealth in our communities and provide safe, local, sustainable, seafood 
products.
Opportunities
    There is growing consensus among scientists, resource managers and 
industry that diversification of aquaculture to include offshore 
farming could expand our capacity for local, safe, seafood production. 
Even some environmental groups have expressed interest in the potential 
for aquaculture to supply a healthier protein with less impact than 
that from other animal sources. This is not to say that there is no 
opposition to aquaculture. However, public engagement and outreach on 
advances in aquaculture can help educate consumers and address 
concerns. By siting aquaculture farms away from sensitive habitats in 
deep waters with adequate currents the potential for pollution is 
reduced. Improved materials for containment and remote sensing 
technology has decreased the likelihood of fish escapement. Remotely 
controlled feeding and observation systems have helped create a 
mechanism for reducing over-feeding and improved feeds have reduced the 
reliance on forage fish.
    The economic success of sustainable commercial operations abroad 
and in Hawaii, Maine and New Hampshire have created a renewed optimism 
for offshore commercial development. Coastal communities are 
recognizing that aquaculture presents a sustainable business 
alternative. These communities have the infrastructure such as boats, 
processing plants, seafood markets and working waterfronts to help 
support operations and aquaculture can consistently supply products to 
keep these businesses operating. Other businesses, such a feed 
suppliers, equipment companies and repair shops also grow in these 
communities. Several offshore aquaculture operations use advanced 
remote sensing, unmanned systems and artificial intelligence. This 
sector of the blue economy would also expand to meet industry needs.
    Businesses need regulatory certainty to reduce the risk of 
investment. Regulatory uncertainty has been widely mentioned as a major 
barrier to offshore aquaculture. The Gulf of Mexico Fishery Management 
Plan for Aquaculture in the Gulf of Mexico (Gulf Rule) published in 
January of 2016. The plan established a regional permitting process to 
manage offshore aquaculture in an environmentally sustainable manner 
and NOAA worked with Federal permitting agencies to create a 
coordinated permit process. The estimated cost for engineering, siting 
and environmental assessment to permit a commercial structure under the 
Gulf rule has been estimated at $1 million dollars. However, investors 
expressed concerns regarding the time, actual cost and uncertainty of 
permit approval. Additional industry concerns of the Gulf Rule relate 
to permit duration, size of restricted zones around permitted areas and 
community acceptance. The day the Gulf Rule was announced several 
groups filed a lawsuit challenging NOAA's authority for permitting 
aquaculture under the 2007 Magnuson-Stevens Act. There is a concern 
that the Magnuson-Stevens Act is not the right tool to regulate 
aquaculture. Offshore aquaculture legislation could provide more 
certainty for permitting and management of aquaculture operations.
    Opportunities also exist for the growth of land-based and near-
shore aquaculture. Land-based aquaculture in recirculating closed loop 
systems is advantageous for numerous reasons. Land-based, recirculating 
systems provide a controlled environment that allows year round 
production, increased biosecurity that reduces the occurrence and 
spread of disease, and the capability for reusing and recycling water 
to decrease the waste and increase sustainability. Because such systems 
are self-contained and decoupled from a water source, they can be 
located almost anywhere near the markets they serve where they create 
local jobs and supply safe, fresh, local, seafood for consumers. Near-
shore aquaculture in the United States also has been increasing. 
Shellfish aquaculture has expanded into new geographic areas and 
production has increased significantly along coastal shorelines. 
Seaweed aquaculture has been increasing in several regions of the 
United States. Growth of near-shore finfish operations also has 
occurred in regions with nearshore water-depths sufficient to support 
the structures. Diversification of seafood products through systems, 
species and location will help build a more resilient industry and will 
help increase production to meet demand.
Challenges and Needs
    For the aquaculture industry to be successful on a scale necessary 
to meet demand, there are things that still need to be addressed. 
Although we have made advancements in fish feed and have reduced 
reliance on forage fish, we should continue to identify alternative 
sustainable feeds for large-scale aquaculture. Improvements in net and 
cage technology have decreased chances of escapes; however, we can 
continue to improve containment systems with new materials and remote 
monitoring technology. Unmanned systems and artificial intelligence can 
aid operators in tasks such as cleaning cages, feeding fish and 
detecting potential problems. This technology decreases reliance on 
divers and helps improve safety of operations. Continued use of these 
systems could further improve safety, provide for more timely and 
accurate assessments, and potentially decrease cost. The development of 
hatchery capacity and refinement of culture techniques is vital to 
industry development. Commercial operators need a reliable and 
consistent source of disease-free larval fish from documented 
broodstock. Whereas some larval fish species can be reliably supplied, 
many other species that are high value and fast-growing lack sufficient 
research development. Other challenges for hatcheries include a 
shortage of customers to purchase fish and keep the hatchery operating 
while waiting on domestic industry development. The use of selective 
breeding as a tool to increase production is far behind the plant and 
farm animal industries. Selective breeding of fish with higher growth 
rates can generally be completed in less time than breeding of farm 
animals. Fish convert feed to meat more efficiently than terrestrial 
animals and the ability to produce a steady fish supply can meet the 
increasing demand for protein. Fish health management is also critical 
to increasing aquaculture production. For some species raised in re-
circulating systems or pond culture disease has been well studied and 
management for prevention has been important for success. Domestication 
of new species and offshore culture will require monitoring and 
adaptive health management plans to reduce disease and outbreaks.
    Supporting aquaculture development by mechanisms similar to those 
used to support agriculture can help industry grow. The agriculture 
industry grew vastly from public support of research occurring at 
universities, state and Federal laboratories and research stations 
spread across the Nation to bring techniques directly to farmers. 
Aquaculture can benefit from a similar approach of competitive peer-
reviewed based research funding and extension funding to advance 
research and development. Advancement of aquaculture, especially 
selective breeding, health management and culture techniques can take 
multiple years for significant gains and long-term funding programs 
will be critical to success. Public and private partnerships also will 
be important to help address industry needs, promote industry growth 
and successfully transfer technology and techniques.
Concluding Remarks
    I appreciate the opportunity to testify before this Committee 
regarding aquaculture. I believe the time is now for the United States 
to become more self-reliant in the production of seafood. We can create 
jobs and reduce the seafood trade deficit while supplying safe, local, 
sustainable, seafood. Diversification of aquaculture production in 
addition to commercial fishing can help supply seafood to help meet the 
growing demand. Government, universities and industry working together 
can help create regulatory certainty, address research needs and 
advance sustainable aquaculture.

    The Chairman. Thank you, Dr. Lucas.
    Mr. Seaver.

 STATEMENT OF BARTON SEAVER, DIRECTOR, SUSTAINABLE SEAFOOD AND 
      HEALTH INITIATIVE, CENTER FOR HEALTH AND THE GLOBAL 
    ENVIRONMENT, HARVARD T. H. CHAN SCHOOL OF PUBLIC HEALTH

    Mr. Seaver. Hi. Good morning, Chairman Thune and all the 
Ranking Members here. An incredible opportunity and honor to be 
here representing my home state of Maine and all of the coastal 
communities along this great Nation's shorelines.
    I want to talk a little bit today just about why 
aquaculture matters, why seafood is important to us, and a 
little bit of the opportunity that resides within it for us to 
look ahead, too, as so many of my fellow panelists have spoken 
about, and I look forward to continuing conversation.
    So in Maine, we have a slightly unique cultural dynamic. 
There we honor the legacy and the presence of the lobster 
fisheries specifically, also the fin fisheries. The working 
waterfronts that they support, the sophisticated cold chain 
supply systems, individual boat operators, owners, ice 
producers, the cold chain, all of it there. There's a strong 
apprentice program, a strong presence and legacy of this 
industry. And there we view lobstering and fishing as a noble 
profession, one that is very essential to the state's identity. 
But this genuflection to the men and women harvesting seafood 
is not shared by all communities in America, and rarely so 
actually only in specific areas around the country.
    When we, as citizens, as an analogy, envision an 
agricultural scene, we envision amber waves of grain, the 
fruited plain, the picturesque red barns. We get this. This is 
American iconography, a conjuring that represents and renders 
farming as the best possible use of fertile land. But when we 
think of the ocean, it's often wilderness that captures our 
imaginations about it. We value the open sea because the hand 
of man is simply not present. But I argue that we must 
emotionally embrace farming our seas and fishing them so as we 
do farming the land. And this is an important part of putting 
the culture into aquaculture.
    There is more America underwater than there is above it. As 
Chairman Thune mentioned, we have more--there is more coastline 
in America and the longest--the largest Exclusive Economic 
Zone. Recently, a study mapped global marine aquaculture 
productivity concluded that in an area the size of the ocean, 
just an area of the ocean the size of Lake Michigan, we could 
sustainably farm as much seafood as is currently captured 
globally in the wild. With that amount of opportunity, it is 
incredible.
    And as railroads once allowed our expansion westward, 
aquaculture will be the vehicle that allows us to pioneer our 
path into a new economic geography. In eras past, the rallying 
cry was, ``Go west, young man!'' and it was 40 acres and a mule 
that allowed us to succeed. And today, that same rallying cry 
is, ``Go west, young person!'' It's going to be 20 acres of 
marine lease and an outboard that is going to get us there.
    In a paper by esteemed colleague Michael Rubino and Gunner 
Knapp, they say that the biggest impediment to developing 
American aquaculture is the industry's lack of social license. 
And an industry gains social license when the general public 
understands the benefits that it brings to the table, and for 
aquaculture, that is a healthier citizenry. It is economic 
opportunity and a chance to maintain out leadership on a global 
stage presenting a consistent model for responsibly and 
ecologically sustainable practices.
    Seafood is an important part of our diet, as Americans, and 
should be more so. If Americans followed our own government's 
recommendations to eat omega-rich seafood twice a week, 55,000 
lives would be saved annually from stroke and heart disease, 
and yet only 1 in 10 Americans follow these regulations. It's 
not a stretch to say that America--a ``Made in the USA'' stamp 
of sustainably produced domestic aquaculture could inspire 
confidence and lead to increased consumption.
    Further, the average age of fishermen in this country is 
growing, and few participants are joining their ranks. A lack 
of jobs and prosperity in wild fisheries has led young people 
in coastal communities to look for work elsewhere. This is 
particularly true in Maine. Aquaculture could provide that 
missing opportunity in an exciting and innovative new industry, 
and this is already happening, beginning to happen, in Maine, 
where sons and daughters of fishermen are operating dozens of 
oyster, mussel, seaweed, fish farms.
    But I cannot stress enough how much aquaculture must 
coexist in parallel with our wild fisheries, as they will 
augment each other and ultimately raise the profile and value 
of each of each other's products.
    And I would also like to touch briefly on the notion that 
about how investment in and growth of domestic aquaculture will 
affect our trade imbalance in seafood. I think it's very 
important from a public health perspective that we acknowledge 
that access to sustainable healthy protein, healthy seafood, is 
imperative in America's society. What we should be focusing on 
is growing increased consumption, going from 15 pounds per 
person per year to 25 pounds, and it is within that increased 
consumption that America's aquaculture industry should find its 
opportunity to provide for America's table.
    A thoughtful and inclusive approach to aquaculture 
regulation will set in motion a very compelling American 
success story, will author a new chapter in our economic 
history, and I ask this Committee, in its wisdom, to consider 
regulations that are offered--that are oriented to and governed 
by regional knowledge. One size does not fit all. And though we 
need overarching regulations, please consider that there are 
cultures that will be commended--that will be purposed with 
executing aquaculture. And any aquaculture farm must be 
ecologically and culturally relevant to the area in which it is 
produced.
    It is my hope ultimately that my son, 16 months old, grows 
up on the coast of Maine in the--with all of the opportunity 
that aquaculture presents to him, amongst thriving neighbors, 
and with a dream that he, too, might nobly provide for 
America's tables.
    Thank you so much for the opportunity to be here today.
    [The prepared statement of Mr. Seaver follows:]

Prepared Statement of Barton Seaver, Director, Sustainable Seafood and 
   Health Initiative, Center for Health and the Global Environment, 
               Harvard T. H. Chan School of Public Health
    Good afternoon Chairman Thune, Ranking Member Nelson and all other 
members of the committee. I am honored to be here speaking on behalf of 
my neighbors in coastal communities throughout America. We have very 
good reason to consider the promising future of aquaculture.
    I began my career as a chef here in Washington, D. C. I used that 
platform to espouse a negative view of aquaculture. My opinion was 
based on a limited scope of information I gathered from environmental 
advocacy groups concerning the state of the aquaculture industry at 
that point in time 15 years ago. As my career progressed, I gained an 
understanding of the full context of aquaculture's impact, both 
positive and negative.
    I left the restaurant industry 8 years ago and took an assignment 
as a National Geographic Explorer. My mission focused on marine 
ecosystems, discovering strategies to minimize human impact upon them. 
I came to understand that the whole concept of environmental 
sustainability hinges on thriving coastal communities. Certainly, the 
coastal way of life depends on a resilient underlying marine ecosystem 
to which we must be good stewards. But I believe that in aquaculture, 
we can sustainably capitalize on the positive impact marine ecosystems 
have on these communities and the wider population.
    I now live in a Maine coastal community where I am raising my son. 
His ability to thrive depends on the well-being of the entire 
community. As such, this topic has become a deeply personal issue.
    In Maine we honor the legacy of the lobster fishery that supports 
working waterfronts, a sophisticated cold chain system, bait suppliers, 
individual boat owners, and a strong apprentice program. We view 
lobstering as a noble profession, one essential to the state's 
identity. But this genuflection to the men and women harvesting seafood 
is not widespread beyond Maine.
    When we as citizens envision an agricultural scene, we see amber 
waves of grain, the fruited plains, stoic white farm houses and 
picturesque red barns; a conjuring that renders farming the best 
possible use of fertile land. We value land for our presence there. But 
when we think of the ocean, it's the wildness that captures our 
imaginations. We value the open sea because the hand of man is not 
present. I argue that just as we emotionally embrace farming the land, 
so must we embrace fisheries and aquaculture.
    The diesel engine pushed Americans westward to manifest destiny. 
But we've hit hard limitations--depleted aquifers, soil erosion, and 
changing weather events--to further increasing agriculture production 
on land. We need to look to the oceans for long-term food security. 
More of America sits under the ocean than above it. We have the longest 
coastline in the world and the largest exclusive economic zone. In a 
study mapping the global potential for marine aquaculture conducted by 
a group of University of California at Santa Barbara scientists 
concludes that in an area of the ocean the size of Lake Michigan that 
is ripe for aquaculture, we could sustainably farm fish equal to the 
amount of seafood currently caught globally in the wild today.\1\
---------------------------------------------------------------------------
    \1\ Mapping the global potential for marine aquaculture http://
www.nature.com/articles/s41559-017-0257-9
---------------------------------------------------------------------------
    As railroads facilitated westward expansion, aquaculture will 
pioneer a path into an ocean geography that will become Blue America. 
In eras past, the rally cry was ``Go west, young man!'' And the means 
to settlement and prosperity was 40 acres and a mule. Today, that same 
sentiment comes in the declaration ``Go wet, young person!'' It will be 
20 acres of marine lease and an outboard motor that will get us there.
    In a paper on the political economics of marine aquaculture in the 
United States,\2\ scientist Gunner Knapp, recently retired from the 
University of Alaska, and Michael Rubino, Director of the Office of 
Aquaculture at NOAA's Fisheries Service, say the biggest impediment to 
developing American aquaculture today is the industry's lack of social 
license. An industry gains social license when the general public 
understands the benefits it brings to the table. For aquaculture, those 
include a healthier citizenry as Americans will have better access to 
more seafood; economic opportunity by way of new jobs, and, a chance to 
maintain our leadership on the world stage as a consistent model for 
responsible and ecologically sustainable aquaculture practices.
---------------------------------------------------------------------------
    \2\ The Political Economics of Marine Aquaculture in the United 
States http://www.tand
fonline.com/doi/abs/10.1080/23308249.2015.1121202?journalCode=brfs21
---------------------------------------------------------------------------
    Seafood is an important ingredient in a healthy diet. Fish--
compared to cows, sheep, pigs and chickens--levy the least 
environmental impact to produce, and their protein is healthier for the 
human diet. If Americans followed our own government's recommendation 
to eat omega-3 rich seafood just two times a week, 55,000 lives would 
be saved annually from heart disease and stroke annually.\3\ And yet, 
only 1 in 10 Americans follow these guidelines.\4\ It is not a stretch 
to say that developing the United State aquaculture industry as a 
trusted source for seafood would lead to increased consumer confidence 
and consumption.
---------------------------------------------------------------------------
    \3\ Association between Dietary Factors and Mortality from Heart 
Disease, Stroke, and Type 2 Diabetes in the United States https://
jamanetwork.com/journals/jama/article-abstract/2608
221
    \4\ Scientific Report of the 2015 Dietary Guidelines Advisory 
Committee https://health.gov/dietaryguidelines/2015-scientific-report/
PDFs/Scientific-Report-of-the-2015-Dietary-Guidelines-Advisory-
Committee.pdf
---------------------------------------------------------------------------
    This nation was founded on cod and the backs of the men and woman 
who fished them. The ocean economy spurred the economic and political 
freedoms we enjoy today and we have watched as it atrophied before our 
eyes. The once mighty North Atlantic fishery struggles mightily now. 
While we manage our wild fisheries well, the bounty is a fraction of 
what it once was.
    The average age of fishermen is increasing and few new participants 
join their ranks. A lack of wild fishing jobs drives young people in 
coastal communities to seek work elsewhere. Aquaculture could provide 
that missing opportunity in an exciting and innovative industry. It 
could offer a fishing family's son or daughter an opportunity, a step 
towards to owning a small business and a chance to remain in their 
coastal community and contribute to its evolving maritime heritage. 
This is already happening in Maine where sons and daughters of 
fishermen operate dozens of oyster, mussel, seaweed, and fish farms.
    I cannot stress enough that for all of the opportunity aquaculture 
presents, it exists in parallel with our storied wild fisheries. 
Aquaculture is not a replacement for wild fisheries but an augmentation 
to their culture and economy that will raise the profile and value of 
all American seafood.
    I want to touch briefly on the assertion that an investment in 
American aquaculture will level the trade imbalance between domestic 
and foreign seafood. We should not seek to decrease imports of healthy 
seafood but work to increase overall seafood consumption to drive 
demand seafood raised in our own waters. As the goal is to get more 
people eating more seafood for a healthier America, we cannot vilify 
responsibly sourced seafood imported from other parts of the world. 
Doing so would diminish consumer confidence in all seafood.
    The committee holds this hearing at a unique moment because we have 
the opportunity to be architects of a substantial new economy. A 
thoughtful and inclusive approach to regulating aquaculture will set in 
motion a compelling American success story. I ask this committee to set 
regulations that are oriented to and governed by regional knowledge. 
While we need overarching guidelines, one size will not fit all as 
aquaculture is a product of a community and is unique to the 
environment in which it is executed. Likewise, we must move forward 
with the understanding that not all forms of aquaculture are culturally 
or ecologically appropriate for all places. Please consider giving 
residents of those places--especially First Nations People and those 
with a significant heritage in fishing--the chance to decide what 
aquaculture means for them and let them design regionally specific 
methods in pursuit of the seemingly inexhaustible potential of 
America's Blue Economy.
    It is my hope that my son grows up surrounded by opportunity, 
thriving neighbors, and a dream to nobly provide food for America's 
tables. Again, I thank you for the honor of appearing before you today. 
And I stand ready to answer any questions you or your staff may have 
now or in the future.

    The Chairman. Thank you, Mr. Seaver.
    I have to step out momentarily, so I'm going to hand the 
gavel over to Senator Blunt.
    But, Mr. Kent, Dr. Kent, good to have you here. Please, 
proceed.

        STATEMENT OF DONALD B. KENT, PRESIDENT AND CEO, 
               HUBBS-SEAWORLD RESEARCH INSTITUTE

    Mr. Kent. Thank you. My name is Don Kent, and I'm the 
President and CEO of Hubbs-SeaWorld Research Institute. I want 
to thank Chairman Thune, Ranking Member Nelson, and the other 
members of the Committee for this opportunity to discuss the 
opportunities and concerns arising from the development of 
marine farming in our Nation's waters.
    I've been involved in aquaculture research for over 40 
years and have worked on research involving the culture of a 
wide range of species, including plants, shellfish, and 
finfish.
    Our Institute is a nonprofit scientific research 
organization dedicated to advancing a healthy ocean environment 
to the benefit of both human and animal populations. As a part 
of this mission, we have developed a comprehensive aquaculture 
research program looking at the feasibility of not only 
restoring depleted marine stocks, but also developing a broader 
sustainable seafood production capability.
    Our Nation leads the world in the production of farm 
products except for seafood. Presently, the United States is a 
minor player in aquaculture production, but the second largest 
consumer of seafood. The resulting dependence on importing 
farmed seafood from other countries could be reversed by the 
United States using its existing regulations to demonstrate 
best management practices for seafood in the open ocean. The 
lack of a Federal management framework to grow fish in the 
Exclusive Economic Zone is a significant barrier to reaching 
this goal and presents an almost insurmountable barrier to 
investors that would rather invest in farms in other countries 
and import the product into our Nation.
    Our Nation has invested heavily in marine aquaculture 
research, resolving issues like fishmeal replacement, disease 
prevention and management, open ocean equipment engineering, 
and domesticating regionally appropriate species for culture, 
and our Institute and its collaborators have contributed 
significantly to setting the stage for offshore farming.
    The research we have conducted over the decades has not 
gone unnoticed. To demonstrate the potential for open ocean 
farming, the Institute has provided juvenile fish reared in our 
hatchery to farms off the coast of Baja California, Mexico, 
farms funded and operated by Americans. These farms have 
expanded well beyond the demonstration scale and are now 
selling the majority of their product to U.S. markets.
    For more than a decade, we have been working without 
success to permit a farm off the coast of Southern California. 
This one farm, while using less than a square kilometer of open 
ocean space, would produce five times more seafood than all the 
commercially harvested seafood in San Diego County while 
supporting 70 farm jobs as well as an additional 200 or more 
indirect jobs. The problem is not a lack of regulatory process, 
but, rather, the lack of Federal research--excuse me--the 
Federal leadership in managing that process.
    Agencies like the Army Corps of Engineers and the 
Environmental Protection Agency know what permits are needed 
and understand their authorities. The limiting factor has been 
a lack of defined leadership for the required environmental 
review. As both the Corps and the EPA were disinclined to 
accept that responsibility, in 2014, we submitted permit 
applications to these agencies, but it took 7 months before the 
EPA finally agreed to lead a single consolidated NEPA review 
process in collaboration with the Corps and NOAA fisheries 
under the auspices of a multiagency MOU.
    After both the EPA and Army Corps had published their 
individual notices of intent in the Federal Register and had 
each received comments following the extended public review 
periods, the wheels came off the wagon. Eleven months after 
agreeing to take the lead, the then EPA Regional Director 
recanted the agreement, forcing two disconnected and 
independent reviews, and cost us more than a year of lost 
effort.
    A year later, NOAA fisheries offered to undertake the lead 
even though their agency did not need to issue a permit for the 
project. Hopefully, we are now moving forward and are trying to 
assure our understandably nervous investors that we have a 
viable permitting process to guide us.
    The need for expanding domestic aquaculture and recognizing 
its net positive environmental impact has become more prevalent 
over the past decade. Numerous studies point to marine farming 
as the most sustainable way to grow animal protein for human 
consumption. Marine conservation groups as diverse as the 
Coastal Conservation Association, the Nature Conservancy, and 
World Wildlife Fund are interested in improved technologies and 
best practices, enhancing a positive role of aquaculture in the 
U.S., reducing the Nation's reliance on imported farmed seafood 
and commercially caught wild finfish, that are far more 
difficult to manage and far more subject to fluctuations in the 
ocean environment.
    Last week, the Yale School of Forestry and Environmental 
Studies published an article stating ``if you look at best 
management practices in aquaculture, there's nothing comparable 
in terms of land-based meat production that has such a low 
level of environmental impacts.''
    The limited scope of the U.S. marine aquaculture industry 
will not expand without access to the offshore Federal waters. 
Urgency needed is clear authority for U.S. aquaculture 
entrepreneurs to operate in the EEZ while complying with 
existing regulations and doing so and creating a viable, 
competitive business model.
    Marine aquaculture in the EEZ promotes public health, food 
security, and American economic interests, but only if 
government provides clear and timely legal authority for our 
private sector's mission and removes unwarranted regulatory 
obstacles. We need a consistent, predictable, efficient 
permitting process to incentivize American investors, keeping 
their capital here, thereby creating a new paradigm for 
domestic seafood production toward higher food security, lower 
transport costs, more American jobs, and a larger tax base, and 
rebirth of our working waterfronts.
    Thank you very much for this opportunity.
    [The prepared statement of Mr. Kent follows:]

       Prepared Statement of Donald B. Kent, President and CEO, 
                   Hubbs-SeaWorld Research Institute
    My name is Donald Kent and I am the President and CEO of the Hubbs-
SeaWorld Research Institute. I want to thank Chairman Thune, Ranking 
Member Nelson, and the other Members of the Committee for this chance 
to discuss opportunities and concerns arising from the development of 
marine farming in our Nation's waters. I have been involved in 
aquaculture research for over 40 years and have worked on research 
involving the culture of a wide range of species including plants, 
shellfish and finfish. In addition to these brief remarks, I will 
append an annotated list of references for the Committee's 
consideration.
    Our Institute is a non-profit, scientific research organization 
dedicated to advancing a healthy ocean environment to the benefit of 
both human and animal populations. As a part of this mission, we have 
developed a comprehensive aquaculture research program looking at the 
feasibility of not only restoring depleted marine fish stocks, but also 
developing a broader sustainable seafood production capability.
    Our nation leads the world in the production of farmed products 
except for seafood. Presently, the United States is a minor player in 
aquaculture production but the second largest consumer of seafood. The 
resulting dependence on importing farmed seafood from other countries 
could be reversed by the United States using its existing regulations 
to demonstrate best practices for farming seafood in the open ocean. 
The lack of a Federal management framework to grow fish in the 
Exclusive Economic Zone is a significant barrier to reaching this goal, 
and presents an almost insurmountable barrier to investors that would 
rather invest in farms in other countries and import the product into 
our markets.
    Our nation has invested heavily in marine aquaculture research 
resolving issues like fish meal replacement, disease prevention and 
management, open ocean equipment engineering and domesticating 
regionally appropriate species for culture, and our Institute and its 
collaborators have contributed significantly to setting the stage for 
offshore farming. The research we have conducted over the decades has 
not gone un-noticed. To demonstrate the potential for open ocean 
farming, we have provided juvenile fish reared in our hatchery to farms 
off the coast of Baja California, Mexico; farms funded and operated by 
Americans. These farms have expanded well beyond the demonstration 
scale and are now selling the majority of their product to U.S. 
markets.
    For more than a decade we have been working, without success, to 
permit a farm off the coast of southern California. This one farm, 
while using less than a square kilometer of open ocean surface area, 
would produce 5 times more seafood than all the commercially harvested 
seafood in San Diego County while supporting 70 direct farm jobs as 
well as additional 200 or more indirect jobs. The problem is not a lack 
of regulatory process, but rather the lack of Federal leadership to 
manage that process.
    Federal agencies, including the Army Corps of Engineers (Corps) and 
the Environmental Protection Agency (EPA) have relevant permitting 
authorities and understand those authorities. The limiting factor has 
been a lack of defined leadership for the required environmental 
review, as neither the Corps nor the EPA has been willing to accept 
that responsibility. In 2014 we submitted permit applications to these 
agencies, but it took seven months before the EPA finally agreed to 
lead a single, consolidated NEPA review process in collaboration with 
the Corps and NOAA Fisheries under the auspices of a multi-agency 
Memorandum of Understanding. After both the EPA and Corps had published 
their individual Notices of Intent in the Federal Register and had each 
received public and various agency comments following extended public 
review periods, the wheels came off the wagon. In March 2016, 11 months 
after the EPA agreed to lead the joint NEPA review, the Regional 
Director of the EPA recanted the agreement thereby bifurcating the 
conjoined environmental reviews into two, disconnected and independent 
reviews.
    A year later in the spring of 2017, NOAA Fisheries, based on their 
unique aquaculture and marine resources expertise, offered to undertake 
the lead agency role for the requisite NEPA review even though their 
agency does not have permitting authority for aquaculture at this time. 
(NOAA Fisheries is consulted by EPA and the Corps via their respective 
consultation processes.) We are hopeful that we now have a process to 
move the environmental review process forward with NOAA Fisheries 
leading NEPA review, and the EPA and the Corps as cooperating or 
participating agencies and are trying to assure our understandably 
nervous investors that this time there will be no recanting of the 
process.
    As the recognition over the past decade of the need for expanding 
domestic aquaculture has become more prevalent, far more attention is 
being paid to the potential for a net benefit to the environment that 
would result from farming more seafood. Numerous studies now point to 
marine farming as the most sustainable way to grow animal protein for 
human consumption. Marine conservation groups as diverse as the Coastal 
Conservation Association, The Nature Conservancy and the World Wildlife 
Fund are exploring how improved technology and best practices can 
enhance the potential positive role aquaculture could play in reducing 
the U.S. seafood market's sole reliance on commercially caught wild 
finfish and imported farmed seafood products. Many studies now point to 
the need to turn to aquaculture to meet the growing demand for protein 
since terrestrial based animal production puts far more pressure on 
limited natural resources. Last week the Yale School of Forestry and 
Environmental Studies published an article in which Dr. Steve Gaines, 
the Dean of the Bren School of Environmental Science & Management at UC 
Santa Barbara, stated: ``If you look at best management practices in 
aquaculture, there's nothing comparable in terms of land-based meat 
production that has such a low level of environmental impacts.''
    The limited scope and size of today's U.S. marine aquaculture 
industry simply cannot substantially expand without access to the 
offshore waters controlled by the Federal Government, the Exclusive 
Economic Zone (EEZ). However, access alone is not sufficient, and will 
not create the fertile environment for private investment in U.S. 
marine aquaculture. What is urgently needed is clear legal authority 
for U.S. aquaculture entrepreneurs to operate in the EEZ in compliance 
with existing regulatory programs toward implementation of viable 
business models that will prosper in the highly competitive global 
seafood marketplace.
    Offshore marine aquaculture in the EEZ holds tremendous potential 
for advancing the public health, food security and economic interests 
of Americans, but those interests can only be served if government 
provides the legal authority for the private sector to fulfill that 
mission without unwarranted regulatory obstacles. We need to establish 
a consistent, predictable and efficient permitting process that will 
incentivize American investors into keeping their investment capital in 
this country to create a new paradigm for domestic seafood production 
thereby leading to higher food security, lower transportation costs to 
our seafood supply chain, more American jobs, a larger tax base and 
greater utilization of our working waterfronts.
    Additional Comments and References\1\ to Augment the Testimony 
 Presented by Donald Kent to the Commerce, Science and Transportation 
Committee of the United States Senate's hearing on Growing the Future: 
     Opportunities to Support Domestic Seafood through Aquaculture.
---------------------------------------------------------------------------
    \1\ Content compiled by Paul W. Zajicek, Executive Director of the 
National Aquaculture Association for its Marine Aquaculture Committee
---------------------------------------------------------------------------
    Over the last 20 years, responsible environmental stewardship has 
become the proven business model in the states or territorial waters of 
Maine, Washington, Hawaii and Puerto Rico where commercial scale net 
pens have been operated to farm Atlantic salmon, Almaco jack or cobia. 
Additionally, shellfish farming is expanding in Alabama, Alaska, 
California, Connecticut, Florida, Hawaii, Louisiana, Maine, New 
Hampshire, New Jersey, New York, Maryland, Massachusetts, North 
Carolina, Oregon, Rhode Island, Virginia, South Carolina and 
Washington, growing abalone, clams, oysters, geoduck, mussels or 
scallops. These farms have been managed in compliance with state and 
Federal regulations with Best Management Practices, along with the 
provisions of long-term lease agreements with the states or territory. 
All such operations are conducted with regulatory transparency 
supported by environmental monitoring data and periodic reporting for 
these operations in publicly available documentation required by state 
and Federal agencies.
    It is abundantly clear: the limited scope and size of today's U.S. 
marine aquaculture industry simply will not substantially expand 
without access to the majority of offshore waters that are controlled 
by the Federal Government. Large-scale marine aquaculture production in 
the United States would create the ability to:

  <bullet> Close a significant gap in U.S. food security (availability) 
        through the farming of seafood products in U.S. waters rather 
        than relying as the United States currently does on foreign 
        seafood sources for 90 percent of the seafood consumed by our 
        citizens.

  <bullet> Create ancillary equipment and service businesses and new 
        jobs within coastal and inland communities.

  <bullet> Accelerate technological development to reduce production 
        costs and minimize adverse environmental effects.

  <bullet> Maintain working waterfronts and build upon the existing and 
        unique knowledge, skills and abilities possessed by commercial 
        fishers.

  <bullet> Preserve rural and coastal communities by providing economic 
        development and diversification opportunities and jobs 
        consistent with community desires for a sustainable future.

    While these potential outcomes are well-documented,\2\ we have yet 
to make any significant advances in U.S. marine aquaculture production 
in the 37 years since passage of the National Aquaculture Act of 1980. 
Currently marine farming production is approximately 45,500 tons valued 
at $327 million and supplies about 3 percent of U.S. seafood 
consumption. Federally managed waters beyond coastal state boundaries, 
termed the Exclusive Economic Zone, encompass 4.4 million square miles 
(11.3 million square kilometers). A U.S. study estimated that 195 
square miles (500 sq. km) of ocean, managed under existing regulations, 
could produce 1.3 billion pounds (600,000 metric tons) or more of high 
quality seafood.\3\ Theoretically, the farming of 970 sq. miles (2,500 
sq. km), an area representing .0002 percent of the Exclusive Economic 
Zone, less than half the size of Delaware, would double U.S. edible 
seafood production or an area the size of the Pentagon could produce 
220 million pounds (100,000 MT). A doubling of U.S. aquaculture 
production to about 1 million tons could create an estimated additional 
50,000 farm and non-farm jobs.\4\
---------------------------------------------------------------------------
    \2\ Rubino, Michael (ed). 2008. Offshore Aquaculture in the United 
States: Economic Considerations, Implications & Opportunities. U.S. 
Department of Commerce; Silver Spring, MD; USA. NOAA Technical 
Memorandum NMFS F/SPO-103
    \3\ Nash, C.E. 2004. Achieving Policy Objectives to Increase the 
Value of the Seafood Industry in the United States: The Technical 
Feasibility and Associated Constraints. Food Policy 29:621-641.
    \4\ Knapp, G. and M.C. Rubino. 2016. The political economics of 
marine aquaculture in the United States. Reviews in Fisheries Science 
and Aquaculture 24(3): 213-229.
---------------------------------------------------------------------------
    Over the last 20 years, rather than acknowledging the many advances 
in marine aquaculture production practices and successful management 
strategies for adverse environmental impacts, the environmental 
community continues to restate a variety of potential adverse 
environmental effects of aquaculture based on outdated production 
methods and standards.\5\ We note the U.S. Environmental Protection 
Agency has held authority under the Clean Water Act to regulate 
discharges from fish farms for decades. During a four-year period, 
2000-04, the agency completed a detailed technical review of its 
standards and modern aquaculture methods, including those used for 
marine aquaculture. The Clean Water Act regulations for aquaculture met 
all standards of environmental protection mandated by Congress and 
additional regulatory standards were found to be unwarranted. Current 
regulatory authority exists to appropriately protect marine water 
quality and benthic environmental systems, manage fish escapes, and 
require responsible drug and chemical use. Basic and applied research 
supported by governmental agencies and the private sector has led to 
continuing improvements in reducing the use of essential fish meal and 
fish oil components in pelleted aquaculture feeds.
---------------------------------------------------------------------------
    \5\ Goldburg, R. and T. Triplett. 1997. Murky Waters: Environmental 
Effects of Aquaculture in the United States. Environmental Defense 
Fund, New York NY
---------------------------------------------------------------------------
    Over the last 20 years, responsible environmental stewardship has 
become the proven business model in the states or territorial waters of 
Maine, Washington, Hawaii and Puerto Rico where commercial scale net 
pens have been operated to farm Atlantic salmon, Almaco jack or cobia. 
Additionally, shellfish farming is expanding in Alabama, Alaska, 
California, Connecticut, Florida, Hawaii, Louisiana, Maine, New 
Hampshire, New Jersey, New York, Maryland, Massachusetts, North 
Carolina, Oregon, Rhode Island, Virginia, South Carolina and Washington 
growing abalone, clams, oysters, geoduck, mussels or scallops. These 
farms have been managed in compliance with state and Federal 
regulations with Best Management Practices, along with the provisions 
of long-term lease agreements with the states or territory. All such 
operations are conducted with regulatory transparency supported by 
environmental monitoring data and periodic reporting for these 
operations in publicly available documentation required by state and 
Federal agencies.
    The inherent sustainability of aquaculture production as practiced 
in the United States is recognized by marine education organizations, 
academic institutions and national agricultural and aquaculture 
organizations as vividly described in recent videos:

  <bullet> Aquarium of the Pacific, Perspectives on Marine Aquaculture 
        in California and the U.S.: https://vimeo.com/211721422 and 
        Marine Aquaculture: a tool for conservation: https://
        www.youtube.com/watch?v=ygoU5knT7ww.

  <bullet> University of Miami, The Business of Aquaculture: https://
        www.youtube.com/watch?v=2vduoM7hYKA.

  <bullet> University of Maine, Farming the Sea: https://
        science360.gov/obj/video/ae3d54f0-eb7e-4b0d-9db8-379be48f7b04/
        farming-sea

  <bullet> Soy Aquaculture Alliance, The Working Waterfront--American 
        Aquaculture in the 21st Century: https://www.youtube.com/
        watch?v=aGgtS4v9WBM.

    Senator Nelson. May I just ask, Mr. Kent, are you 
headquartered at Melbourne Beach?
    Mr. Kent. Our--we have our laboratory--one of our 
laboratories at Melbourne Beach and another laboratory in San 
Diego. So we operate on both coasts of the United States.
    Senator Blunt [presiding]. I thank all of you for your 
testimony. We will start our 5-minute round of questions.
    And, Senator Klobuchar, if you want to start that, that 
will be great.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you, Senator Blunt, you and the 
Chairman, and Senator Nelson.
    Minnesota is into fishing, as you probably know. We're the 
land of 10,000 lakes. One of our TV stations for the Super Bowl 
that's going to come to Minnesota has actually installed an ice 
fishing hole on the roof, and people are going up there and ice 
fishing in 5 degree weather.
    So my question is about aquaculture, though, because we 
also have some exciting developments there. Cargill Aqua 
Nutrition is a leader in supplying sustainable nutrition 
solutions for aquaculture farmers. But we also have a company 
called Tru Shrimp that is currently developing some jobs in 
southwestern Minnesota. I actually just visited them this past 
summer, and they're going to break ground on a $50 million 
facility that will produce 9 million pounds of shrimp annually 
right near the South Dakota border actually, and this is in 
Luverne, Minnesota.
    And, Mr. Lucas, can you talk about the role of a reliable 
water source? Dr. Lucas, I'm sorry, could you please describe 
that? Because one of the reasons they could locate down there 
is we've got this Lewis and Clark water project going with the 
Federal Government, South Dakota, Minnesota, and Iowa.
    Dr. Lucas. Yes, thank you. So our center also employs 
recirculating aquaculture technology. And the great thing about 
these land-based recirculating systems is they can locate 
pretty much anywhere. And the use of the recirculating systems 
to salt the water artificially, and you flow the water through 
the systems. So you're able to mechanically filter and 
biologically filter as well as sterilize the water so that you 
can reuse it. So it makes the use of water very efficient. And 
so they're able to produce. And so the great thing is you can 
be really close to your market supply. And these facilities can 
locate anywhere and be part of the chain and help provide 
local, safe, sustainable seafood to their consumers.
    Senator Klobuchar. Right, exactly. And do you see, Dr. 
Lucas, maybe Mr. Kent, just what are some of the obstacles--
water is one of them--if you're in a location like our company 
is, but we fixed that, other obstacles to going forward with 
this?
    Dr. Lucas. Yes, ma'am. I think, like I said, the ability to 
be able to use the artificial seawater is great. I think the 
other thing is consumer education, making sure people know that 
there is a domestically produced seafood product, that it's 
local, that it came from their environment, that it helped 
create jobs in their environment. So I think education is also 
critical to getting people to understand that this is helping 
support their local working population as well as provide them 
with some sustainable seafood product that is very healthy.
    So in terms of land use, being able to do something 
similar, which is on a recirculating basis, or using the same 
water and using it, you know, even if you discharge water to 
grow plants or something like that, is very beneficial.
    Senator Klobuchar. Thank you.
    Do you want to add anything, Mr. Kent?
    Mr. Kent. Well, certainly. I think there's a wide range of 
technologies that can be brought to bear in developing 
aquaculture. We use recirculation in our hatchery operations. 
And, as Dr. Lucas suggested, being close to market is critical 
in producing the product right now. Importing so much of our 
seafood means that there's a huge cost in bringing that product 
in.
    Senator Klobuchar. Exactly.
    Mr. Kent. At the same time, if we have recirculation going 
on in some areas, we can also have open ocean farming going. We 
have 37 million people in California, quite a few people in 
Florida. In fact, 70 percent of the world's population lives 
within the coastal zone around the world. So being able to 
utilize the ocean in combination recirculating technology means 
that we can get product closer to market, cutting the cost of 
producing that as well as reducing the energy requirements in 
transporting that product around the world.
    Senator Klobuchar. Thank you. I mentioned Cargill Aqua 
Nutrition with aqua feed, but, Mr. Luecke, we also will see 
some big benefit for grain farmers. What types of benefits 
would they potentially see from further development of the 
inland aquaculture? I keep emphasizing ``inland,'' because of 
where my state is, like Missouri. Yes.
    Mr. Luecke. Yes, no, thank you, Senator Klobuchar. And 
consistent with what Dr. Lucas and Mr. Kent were saying, I 
think transportation is an important topic, and we're excited 
to be about 60 miles to the west of Tru Shrimp in Minnesota, so 
we're very excited about the project that they have. We hope to 
be providing feed to them at some point.
    And so regarding transportation, being able--in Minnesota, 
the State of Minnesota produces a lot of soybeans as well. So 
being able to take soybeans out of our farmers' fields, process 
them locally, and then quickly move them into a value-added 
product like a fish or a shrimp is absolutely critical because 
we're reducing transportation costs all the way through the 
value chain.
    Senator Klobuchar. Exactly. And is soybeans something like 
45 percent of shrimps' diet, is that right?
    Mr. Kent. It's close to 45 percent.
    Senator Klobuchar. Yes.
    Mr. Kent. And, you know, interestingly, what the other 
panelists have talked about is the use of forage fish or 
fishmeal as the primary protein source. And what our process 
has done is we've taken soybean meal and taken the allergenic 
proteins and the allergenic sugars out of soybean meal, 
increased the protein level to 70 percent, which is what shrimp 
and fish want nutritionally. So having a technology that comes 
out of a land-grant university being commercialized, scaled up, 
and then being applied to companies like Tru Shrimp is a great 
opportunity for agriculture and for aquaculture.
    Senator Klobuchar. Mm-hmm. And with the low commodity 
prices right now, I think it would just be really helpful for 
soybeans and really all grains if this could move forward.
    Mr. Kent. It's adding value to the crops coming out of the 
farmer's field.
    Senator Klobuchar. OK. Well, thank you. Well, maybe I'll 
see you there next time I visit.
    Mr. Kent. I look forward to it.
    Senator Klobuchar. Thank you.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Senator Klobuchar. I was 
wondering how long it would take Senator Klobuchar to mention 
the Super Bowl.
    [Laughter.]
    Senator Klobuchar. Ah, well, we keep mentioning that even 
though the Vikings aren't in it, and we are now going to be 
hosts to the Philadelphia fans. Not too easy for us after that 
game.
    Senator Blunt. There you go. It took 11 seconds, by the 
way.
    [Laughter.]
    Senator Blunt. And not bad time on task, 11 seconds to get 
there.
    On this topic, with what's going to happen with world food 
demand, the incredible change in what it's going to take to 
feed people over the next 25 or 30 years, I think the generally 
accepted estimate is that world food demand doubles between now 
and 2050, on the topic of just hatching to table, I think 
aquaculture either recirculating or on the coast, is about as 
quick as anything, but a little more information on that would 
be helpful. How quick does this process move along with the 
kind of product that Mr. Seaver and others who are preparing 
that product would want to have, that families would want to 
have? This is a pretty efficient process, I think.
    Mr. Kent, do you want to start talking about that a little 
bit?
    Mr. Kent. Certainly. The estimate is something like 400 to 
500 million metric tons of protein more required than what we 
have now.
    Senator Blunt. Mm-hmm. And this is 33 years from now.
    Mr. Kent. Yes.
    Senator Blunt. Growing every year between now and then.
    Mr. Kent. What's been interesting is back in the eighties, 
about a third of our protein was coming from the ocean 
globally, but only a small percentage of that was aquaculture. 
Now it's still about 30 percent, but it's half and half. And if 
we try to get the makeup of the protein, that difference, that, 
say, 300 more million metric tons, the effect on the 
terrestrial side of things is going to be dramatic.
    Beef, cattle, chicken: I mean, these are all important 
protein sources, but they're far more requiring of resources to 
grow, water. I live in the largest agricultural state in the 
Nation, we do $45 billion a year, and 80 percent of our water 
goes to food production. And when we have a drought like we had 
over the last few years, we lose 10 percent of our 
productivity. So having the ocean available, or recirculation, 
means that we become independent of what's going on in the 
terrestrial environment.
    Also, these animals are inherently more efficient. The food 
conversion efficiency for a white sea bass or a yellowtail, 
some of the species we work with, is about 1.5:1. The protein 
gets converted much more efficiently from the food source into 
making protein. The primary reason for that is these animals 
aren't fighting gravity, they are floating in the environment, 
they are cold-blooded, so they're not maintaining body 
temperature. And also, as far as space goes, you can stack them 
in a cage the way you can't stack cows. So it is a much more 
efficient process. And utilizing the ocean means that we're 
not--we don't have to have the land or the fresh water to grow 
some of these species.
    Senator Blunt. And I don't think I have an answer. Give me 
an example of one or more of the species you like to work with.
    Mr. Kent. Key species we like to work with is California 
yellowtail. It's imported for the sushi trade, for hamachi. All 
the hamachi in the U.S. is farmed in Japan.
    Senator Blunt. And you start with a hatchling?
    Mr. Kent. We start with adult fish weighing 30, 40 pounds. 
We get eggs that are about a tenth of a millimeter--or, excuse 
me, a tenth of an inch in diameter. We will harvest about 
120,000 1-gram fish out of an 8-foot pool after 60 days. Those 
fish will weigh 30 grams in another 30 days, and they'll grow 
to a marketable size of 4 to 5 kilos in 18 to 20 months, 
depending on ocean temperature. So that may not compare to how 
fast you can grow a cow, but it required a lot less food to get 
you there.
    Senator Blunt. Mm-hmm. And on the non-saltwater species, 
the catfish, the tilapia, how do those numbers compare, Dr. 
Lucas?
    Dr. Lucas. I am marine species by trade, so I can't really 
speak to the freshwater species and information.
    Senator Blunt. Mm-hmm. Can you, Mr. Luecke?
    Mr. Luecke. Yes, Senator Blunt. They're faster than marine 
species. They grow to a smaller size, you know, so 4 to 5 
pounds, typically 6, 8 months, you know, for a medium-size 
trout or slightly faster for tilapia.
    Senator Blunt. Six to 8 months?
    Mr. Luecke. Mm-hmm.
    Senator Blunt. Mm-hmm.
    Mr. Luecke. And I think, you know, one of the important 
things to think about when you think about both the water 
supply and the sustainability of, you know, the nutritional 
process, we're looking at, as Mr. Kent mentioned, the entire 
nutritional value chain. So how efficient are we converting one 
protein to another?
    So we look at the digestibility of the ingredients. So we 
want to make sure that the ingredients that we're feeding to 
any type of fish, whether it's freshwater or marine species, 
are very digestible. So we look at how digestible the protein 
that we're feeding them is. For example, fishmeal, which is a 
less sustainable ingredient, is about 85 to 90 percent 
digestible. Our soy product is 100 percent digestible. And what 
that means is that the animal is using that ingredient much 
more efficiently.
    And then back to Mr. Kent's comments, that animal, the 
fish, can actually convert that into a fish filet on a 1:1 for 
1.5:1 basis. So it's a very efficient process when you look at 
the digestibility of the ingredient.
    Now, one other factor with the digestibility of ingredients 
is that you get a much cleaner water if the ingredient is 
digested. For example, the phosphorus in soybean meal or in 
fishmeal is--without other processing, is not fully digested by 
the animal. So when you're feeding fishmeal, about 50 percent 
of the phosphorus goes into the surrounding environment. When 
you feed an advanced soy protein, 100 percent of the phosphorus 
is being digested, so you're not discharging that into the 
environment. So the digestibility of nutrients is absolutely 
critical to the growth of the fish.
    Senator Blunt. And, Mr. Seaver, how about just generally 
the digestibility of the fish? I mean, how would fish, as we're 
thinking about this, as a protein source both mix in with the 
other protein sources available to you, as an entrepreneur and 
to people who are consuming, and what advantage do you get when 
that fish is close rather than further away?
    Mr. Seaver. Well, there are a number--thank you for the 
question. There are a number of benefits, physically speaking, 
from the public health side. Diversity in our diet is not what 
it should be in terms of our protein consumption, and beginning 
to not necessarily reduce--well, there's an opportunity really 
to radically increase the amount of seafood that we consume, 
and I think that especially when it comes to the local 
opportunities, as Senator Klobuchar was speaking to, there is 
really a lot of opportunity to create a narrative around 
seafood, that this is produced locally, this is shrimp from 
Minnesota, gets attention on a menu, it gets that menu item to 
sing, it gets it onto the table. And so there are the 
efficiencies there that Mr. Kent spoke to about in terms of the 
energy efficiencies.
    But then also we've been speaking largely around finfish, 
but there is also the opportunity to look at marine shellfish 
production, and especially when we speak to oysters, clams, 
mussels, scallops--no offense to the soybean farmers of 
America--but those things feed themselves completely, and while 
I very much support all these efforts as well, I think we need 
to be looking at the farming of shellfish varieties as truly 
just a magnificent opportunity as they, in fact, improve the 
quality of water in which they are grown.
    And they also are--while we are speaking here about large-
scale opportunities and large-scale investment that's needed to 
go offshore, when you're speaking about nearshore and inshore 
aquaculture, we're also sort of inherently speaking about the 
primacy of the small farmer owner/operator and the great 
narrative that is there, the job creation that is there. And so 
when we talk about a mussel that can be seeded, attached to a 
rope, put out into the environment, it feeds itself, and in 12 
to 18 months be ready for the table, this is a commendable 
opportunity and something I think that we should be really 
supporting full-fledged.
    Senator Blunt. And I think there is some concern. I don't 
know who on the panel might be in a position to talk about 
this, but some concern about seafood that is farmed rather than 
wild caught and where it was and how it was grown. And I think 
there would be reasons that Americans would like to think that 
that seafood had come from a place, or fish of any kind, come 
from a place that they had a greater sense of supervision and 
regulation. We occasionally hear on fish issues that, well, a 
lot of people got a product that didn't turn out to be a very 
good product. What would be the benefits of more U.S.-grown 
seafood?
    Mr. Kent?
    Mr. Kent. Well, living within the regulatory framework for 
how all of our food is produced, meets a very high standard. 
When you're importing so much of your seafood from somewhere 
else, how do you know how it was grown? I'm not suggesting that 
it wasn't grown properly, I'm just saying it's very hard to 
know whether it has been or not. And even sometimes the origin 
gets confused. Even the species of what you're consuming can be 
confused. But if it's coming from a farm in your backyard 
through recirculation, or out in the ocean and coming back into 
the dock, and you're permitted to grow a given species in a 
certain way following USDA and FDA standards, then you have a 
lot more reliability on the idea that, well, that fish was 
grown according to the way we want it grown. And there are even 
ways to put traceability into it, where you can actually go 
into the market and put a little code that's called the Q----
    Mr. Seaver. QR codes.
    Mr. Kent.--QR code and flash and know when that fish was 
spawned or when the hatch occurred and when it was harvested 
and when it went on ice and when it went into the store. That 
can all be done by the consumer now, which is very difficult to 
do if you're unloading a freighter full of frozen fish coming 
from Taiwan, but it's something we can do very readily in our 
own farming capabilities here in this country.
    Senator Blunt. And one last question from me for I think 
Dr. Lucas and Mr. Kent. What could the Congress do to help 
create the kind of access that you need to the coast or 
anything we can do to eliminate obstacles you're finding in 
aquaculture generally? But I think particularly the Federal 
issue here may be a coastal issue.
    And, Dr. Lucas, why don't you start, and then Mr. Kent, and 
then we'll go to Senator Fischer.
    Dr. Lucas. We have to look at ways to reduce the barriers 
to entry. Businesses need certainty. The permitting is going to 
be key. They need a defined permitting process. They need to 
know the backbone or structure of the permitting that can 
occur, and that can be regionalized in some aspects, but they 
need to know that one agency is in charge. They don't need to 
run around to five different agencies who nobody takes 
ownership. They need somebody to have ownership, and they need 
to get that through designating an agency.
    They need to also know that their lease or that their 
permit is going to be of a long enough duration that they can 
not only capitalize those expenses that went into getting the 
operation up and running, but that they can also see a return 
on investment and a profit. And if they're good actors, and 
trust me, they want to be good actors. They want to follow all 
the rules and all the regulations, and they want others that 
are in the industry to follow those regulations, so they're 
looking for that level of enforcement. But, they want to know 
if they follow those rules and those regulations, that they are 
going to be able to get a renewed permit, that it's almost 
pretty much certain. They want those level of certainties to 
help reduce the risk.
    In addition to that, we need to continue to work with 
academics and governments to decrease some of the things that 
are barriers in terms of production. Businesses often come to 
us in regards to larval culture or hatchery techniques, helping 
to reduce some of the uncertainty there and reduce the 
bottlenecks that occur in the hatchery. They need a safe, 
disease-free larval fish. Some companies will put that into 
their vertical integration, they may put the hatchery as part 
of their plan. Others may just purchase from a hatchery.
    The other things they come to us about is in regard to 
selective breeding. Universities tend to have access to a lot 
of equipment in terms of being able to look at the genes of 
fish and help determine which fish are going to be more 
successful in aquaculture. And so using those tools as well as 
disease management, those are things that industry often comes 
to a university to help them with and to overcome those 
barriers as well as continuing to expand the nutrition and look 
at reducing our reliance on the reduction fishery for products. 
And, of course, advanced technology, which I think will 
continue, continue to grow.
    Senator Blunt. OK. Mr. Kent, Federal obstacles that we can 
do something about.
    Mr. Kent. Well, wearing my--I'm trying to get a permit hat 
right now, I'd say that the biggest thing that we need is a 
process that's defined. And as I mentioned, I don't think it's 
really the legal permits that are required, the Section 10 or 
the NPDS permit that are a limitation, because the agencies in 
charge of those understand what their authorities are.
    It's really the NEPA, the National Environmental Protection 
Act, certification that needs to be done. That needs to be led 
by an organization, a Federal agency, that has the broad scope 
of understanding of environmental concerns that people have and 
how to mitigate or eliminate those. And in my mind, that has to 
be the NOAA fisheries.
    NOAA has the--when you talk about habitat, interference 
with other fishing operations, endangered species, these are 
all consultations that have to be performed with NOAA anyway, 
so why not put them in the authority? They have not only the 
research, but the regulatory experience, to deal with these 
issues. And if there is something that the legislature could 
do, it might be to mandate that through legislation to bring 
forward a law that said NOAA is the lead agency.
    From putting on my researcher hat, the first thing we need 
is an industry. Dr. Lucas' team, our team, we're ready to solve 
problems, but we need an industry that needs these problems 
solved, and until we have more aquaculture, we can be working 
on new diets, we can work on species that need to be 
domesticated, and we can work on disease treatments, but until 
we're actually going to have an industry that uses it, we're 
kind of just spending your money and not really getting us any 
return on the investment. So we need to start an industry that 
then the scientific community can rally behind and help support 
in cooperation with the agencies, the USDA, NOAA, all the 
different organizations that recognize needs, and science can 
come and help solve the problems.
    Senator Blunt. Well, Senator Klobuchar, Senator Thune, and 
I are pretty interested in that industry being also inland and 
close to those consumers, but I think this is an important part 
of the solution we need for the opportunity and the challenge 
we're about to face. And I want to thank you for your time 
today.
    Senator Thune.
    The Chairman [presiding]. Thank you. Thank you, Senator 
Blunt. And again thanks to our panel, and I appreciate very 
much you being here and sharing your thoughts about what we can 
do to do a better job of growing this economy, growing this 
business, in our country.
    And thank you, Senator Klobuchar, having worked to 
authorize the Lewis and Clark Rural Water Program during my 
time in the House of Representatives, a long history of 
supporting this important project. And Tru Shrimp's story shows 
what's possible when this country has a solid infrastructure 
backbone. So it's quite a testament to American hard work and 
ingenuity, when ``Minnesota-grown'' includes shrimp, right?
    [Laughter.]
    The Chairman. Well, we've got the Vikings, we've got to 
have shrimp, so . . .
    [Laughter.]
    The Chairman. Sorry. I know, I brought it up. That's----
    Senator Klobuchar. We already talked about it.
    The Chairman. Yes.
    [Laughter.]
    Senator Blunt. It took Senator Klobuchar 11 seconds to 
mention the Super Bowl. It took you 23 seconds.
    The Chairman. Oh, did she really get into it?
    [Laughter.]
    Senator Klobuchar. Yes, but Senator Thune does have the 
Corn Palace.
    [Laughter.]
    The Chairman. Ooh, careful, easy.
    [Laughter.]
    The Chairman. It's our pride and joy.
    So, Mr. Luecke, as you well know, and I know you talked 
about this, South Dakota soy is some of the best in the world, 
and it's used in many products. Some may be surprised to hear 
that the so-called square states, like ours, have an important 
role to play in fish farming. So could you kind of just tell us 
how your new commercial-scale facility impacts the local 
economy in South Dakota?
    Mr. Luecke. Absolutely. Thank you, Senator Thune. And the 
square states do have an important role to play in aquaculture 
because right now for aquaculture producers that are trying to 
get started in the United States, the high-quality feed 
ingredients that they depend on, they're coming from foreign 
countries like Peru and Chili and even Southeast Asia. The 
forage fish that we've talked about are what is used in the 
diets of aquaculture species, and that transportation cost to 
get the high-quality feed ingredients into the United States 
for aquaculture production is cost prohibitive. And so 
producers are losing a significant amount of money to their 
bottom line.
    And so what we're doing with our process and, again, our 
process is taking soybean meal, which is a co-product of soy 
processing, we get soy oil and we get soybean meal, and we're 
taking some of the things that fish don't like to eat--the 
allergenic proteins, the allergenic sugars--we're taking that 
out of the soybean meal and really making it look like, from a 
protein ingredient standpoint, the very feed ingredient that 
aquaculture producers are accustomed to feeding the forage 
fish. It's a 70 percent protein, very highly digestible.
    So once we can bring that high-quality feed ingredient 
domestically, we can provide that from the heartland, then we 
should be able to grow more aquaculture facilities because 
we're not depending on importing the very feed ingredients that 
we're dependent on to start this industry.
    So we feel like we've got an important role to play. We 
feel like soy has a very important role to play. It's a 
sustainable product. It has a high amino acid digestibility. 
And it's good for the environment, it's not discharging 
phosphorus into, whether it's a recirculating system or a 
marine environment. So we do, we feel like we've got a very 
important role to play.
    The Chairman. So what would be the economic impact on soy-
growing states if the United States were to embrace domestic 
aquaculture?
    Mr. Kent. Well, it's significant, Senator Thune, because 
the--right now, you know, we're feeding a lot of soybean meal 
to livestock, and as we've talked about on the panel, the feed 
conversion ratio of that is--it's not as efficient as 
aquaculture. So for a soybean farmer that's looking for higher 
value uses of its soybean meal, aquaculture is a perfect 
example. Today, soybean meal trades for about $300 a ton 
whereas fishmeal trades for between $1,500 and $1,600 per ton. 
So there's a significant spread between those two high-quality 
ingredients, and it's something that our soybean farmers can 
actually take advantage of the marketplace.
    Now, you know as well as I do, when the farmers do well in 
the fields, they're spending that money locally, and so not 
only do family farm incomes increase because we found higher 
value uses of a commodity, but the rural communities around 
them, just like the coastal communities, when aquaculture 
thrives in a marine environment, those rural communities thrive 
because the farmers are buying new pickup trucks, they're 
spending money at their local grocers, and that money gets 
recirculated in rural economies.
    And so, again, it's a very high impact, and it's not just 
the farmer that's seeing the impact, it's really the rural 
communities around them.
    The Chairman. The critics of aquaculture point to the use 
of fishmeal as feed to suggest that aquaculture is a zero-sum 
game. In other words, by increasing aquaculture, you're 
decreasing the amount of wild-caught fish available. How does 
using soy-based feed change the impact of aquaculture on our 
wild-caught fisheries?
    Mr. Luecke. And that's one of the biggest problems that 
we're trying to solve, Senator Thune. And, again, I think 
everybody on the panel can agree that nutrition is a key 
element. And so you want to make sure that you have high-
quality ingredients that are going into aquaculture production 
and you have a very efficient process. We've shown that we can 
use soy to replace or extend the use of fishmeal in diets up to 
100 percent. So, again, not only are you not in that zero-sum 
game of fish in and fish out, which is what the industry uses, 
but the retail channel is also looking very closely about the 
traceability of the ingredients that are going into fish 
production.
    So, for example, the retail channel wants to know that 
because a fish is almost a 1:1 basis for what it's eating to 
what is being produced on the shelf, they want to know where 
the ingredients came from, and when you can trace that back to 
the farm, which we can do, they get much more comfortable in 
the product that they're putting out onto the shelf.
    And the other thing that we mentioned previously on the 
panel is the fact that when you're feeding forage fish, not 
only is it a zero-sum game, but there are also a lot of things 
in forage fish, like phosphorus, that's not being completely 
digested by the animal. So one of the things that we have to be 
very careful of, as stewards of our environment, we have to be 
very careful about the nutrients that are fed and not digested. 
And so with forage fish, 50 percent of the phosphorus is not 
being used by the animal, it's being discharged into the 
environment, and that's harmful. So soy helps all of those 
things and really gives us a step up. It creates a much, much 
cleaner image for aquaculture.
    The Chairman. Dr. Lucas, the regulatory barriers to 
offshore aquaculture in the United States seem to be a textbook 
example of how regulatory burdens can stifle economic 
innovation. Could you talk a little bit more about the barriers 
to a healthy aquaculture industry in the United States and any 
suggestions that you might have to alleviate those?
    Dr. Lucas. Yes. So we discussed a little bit earlier about 
trying to make sure we have regulatory certainty, that somebody 
takes ownership of kind of the permit process. I think that's 
something that this--that Congress could do through 
legislation, designating that person who is going to take 
ownership of it, work through the NEPA process, work through 
the environmental process. I think that's going to be critical 
to helping industry move forward. They want some certainty that 
at the end of all the money and all the hard work that they put 
into finding a site, that they are going to be able to get a 
permit and that the permit and the lease duration is going to 
be long enough to not only see a return on their investment, 
but to also see them be able to profit from their investment.
    They also want to be good actors and want to have the 
enforcement element piece. They want to know that if they 
follow all the rules and regulations and the monitoring 
requirements, that they will have reasonable certainty that 
they can renew that permit that they've been working on. And I 
think those will be critical moving forward for industry. In 
addition, working with industry and developing industry, we are 
developing an industry, and what it looks like on day one will 
be a lot different than what it looks like at year 10 or year 
20 and the advancements that we make. And some of those things 
are through research.
    I think Congress and legislation and appropriations that 
are on the scale of what we did with the agricultural industry 
is critical. We used the agricultural industry and we used 
academia and Federal and State labs to do the research and then 
do the extension, you know, across the Nation to help farmers 
grow. I think the same thing can be done in aquaculture. You 
can use the same kind of pattern of competitive-based research 
and extension funding and those long-term fundings to actually 
get that technology out to the industry and to work with 
industry.
    I think public-private partnerships will be critical to 
helping the industry advance. And I think that funding along 
those lines for things that are the barriers in terms of being 
able to do marine species offshore will be critical to industry 
developing.
    The Chairman. Thank you.
    Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chair.
    And good morning to the panel. Thank you all for being 
here.
    Aquaculture has brought my State of New Hampshire a new 
support system to the local seafood industry. In New Hampshire, 
our Sea Grant Program and the University of New Hampshire have 
been working with the Portsmouth Commercial Fishermen's 
Association to farm steelhead trout, mussels, and sugar kelp in 
floating pens on the Piscataqua River, and it has been a 
terrific partnership between the state's Sea Grant Program and 
the university. It has allowed both teams of experts to help 
train local fishermen in the basics of aquaculture, which 
include feeding, maintenance, harvesting, and packaging the 
products for sale.
    So my question is to you, Mr. Kent. How else can 
aquaculture be integrated with the existing harvesting and 
processing sectors of the fishing industry? And do you believe 
fishermen can transfer their existing skills to other sectors 
in the aquaculture industry?
    Mr. Kent. Certainly. I've been approached by commercial 
fishermen that have--are third- and fourth-generation 
fishermen, and they're going--like my dad fished, I fish, but 
son is not going to be able to do this.
    Senator Hassan. Right.
    Mr. Kent. And they're looking at, as Mr. Seaver was talking 
about earlier, this idea that we have a culture of being on the 
sea and providing product and bringing it back to the dock. The 
big difference is you're not going to go out and have to find 
it, it's sitting right there, you know, at the farm----
    Senator Hassan. Right.
    Mr. Kent.--and you can harvest it on demand.
    And the other important factor is the idea that for every 
job in the fishing boat or on the farm, there are two, two and 
one-half jobs downstream to keep that industry going: the 
processing of the fish, the distribution, the maintenance of 
the boats, the nets, and everything else. So it really 
increases the profitability of the working waterfront. And, you 
know, I'm from San Diego, we were the tuna capital of the 
world, and now our waterfront is made up of Hyatt Regency 
Hotels and maritime museums.
    Senator Hassan. Right.
    Mr. Kent. Our working waterfront has been reduced down to 
very small areas that there's heavy competition for putting 
luxury yachts in there instead of fishing boats.
    Senator Hassan. Right.
    Mr. Kent. So having product coming in means these ports 
have the capacity to say, oh, this is an income stream now that 
we need to maintain, and we need to have the infrastructure in 
place.
    Senator Hassan. That is very helpful and I think something 
that the fishermen in my community--you know, New Hampshire's 
coastline is relatively short, but it is very vibrant, and 
we're trying to keep it that way.
    Mr. Kent. Well, something to keep in mind is my guys sit at 
microscopes.
    Senator Hassan. Yes.
    Mr. Kent. They're not going to go out pulling nets. We need 
the skill set of guys that can work in a 10-, 12-foot sea, 
bringing product in, and working, maneuvering boats out there 
in the ocean. So that's really the people we're turning to, to 
run these farms.
    Senator Hassan. OK. That is very helpful. And I guess the 
other question I have for you is around environmental quality. 
How can we maintain environmental quality and strengthen it 
while providing the industry with this kind of flexibility it 
needs to develop in offshore areas?
    Mr. Kent. I think it's really about the location.
    Senator Hassan. Yes.
    Mr. Kent. If you pick the right site where you're not 
interfering with other operations and you have the right depth 
and the right current flow, the presence of the farm is 
undetectable.
    Senator Hassan. Yes.
    Mr. Kent. And that has been shown in lots of circumstances. 
And that's a hard lesson that the salmon industry in Chili had 
to learn, that a lot of other industries or a lot of other 
aquaculture industries in other parts of the world have had to 
learn, is that if you pollute the environment that you're 
growing your fish in, you're causing yourself problems.
    Senator Hassan. Right. Yes.
    Mr. Kent. And so picking the site is critical. And so we've 
been working with NOAA on doing that as well for our proposed 
farm.
    Senator Hassan. Well, thank you very much.
    That's all the questions I had, Mr. Chair.
    The Chairman. Thank you, Senator Hassan.
    Senator Klobuchar, anything else?
    Senator Klobuchar. No. I'm all done. I really learned a 
lot, and I'm excited about what you're doing. Thank you.
    The Chairman. Let me ask a question, and anybody on the 
panel can respond to it. But your testimonies highlight the 
economic, environmental, global security and health benefits of 
increasing domestic aquaculture. However, there is still a 
perception that farm fish is somehow bad or less desirable than 
other seafood. So what is your response to some of those 
perceptions?
    Dr. Kent, and then we'll just go across.
    Mr. Kent. Well, the reality is half of the world's supply 
is farm now, and so it's if you don't like the idea of farm 
fish, then don't eat it, the next guy will. I mean, that's just 
flat out the reality of it. In fact, what's so problematic with 
that attitude is really if you grow fish correctly, if you grow 
shellfish correctly, you have far more control over the 
quality. You don't have to harvest it until Mr. Seaver wants 
it. On Tuesday, he goes to put a ton of yellowtail on the dock; 
Monday, he will go out to get it; Tuesday morning it will be on 
the dock for him. It's not going to get any fresher than that. 
And so control over the supply chain is critical in that. 
Knowing how it's grown, as we were discussing earlier, is 
critical in that.
    And we've taken our fish and provided it to some of the 
most discriminating chefs around, and they feel it's some of 
the best product they've ever worked with. In fact, the head 
chef for the Hyatt Regency said that fish that we provided him 
was better than anything else he could buy in the market. He'd 
like to make it a signature dish at all the Hyatt Regencies 
around the world. So that speaks to the quality of how the fish 
can be harvested and grown and provided to the consumer.
    The Chairman. Thanks.
    Mr. Seaver. Thank you for that question. Unfortunately, I 
think seafood across the board suffers from the stigma of being 
somehow a lesser protein. In fact, I believe that seafood is 
the only protein that we eat that's considered guilty before 
proven innocent, whether it be the quality of the 
wholesomeness--I've never asked, ``Is that pork fresh?'' But I 
hear that asked. You know, the quality of seafood is contended 
from the minute we decide that we would like seafood if we are 
going to enjoy it at all. And unfortunately, through 
environmental conversation as well as through just cultural 
conversation, farmed seafood and wild seafood have been put 
into alternate categories, but really they are the same thing. 
They are the source of the healthiest animal protein that we 
can eat as people, and the source of the most sustainable 
seafood and the most sustainable animal protein that we can 
produce as a nation.
    And so I think that there is a--unfortunately, an 
illegitimate barrier to separating seafood from farmed seafood 
from wild seafood that we need to address first and foremost. 
And I think once that happens, once we begin to elevate seafood 
categorically using whatever means we might have to do it, 
whether it is the story of local shrimp in Minnesota at the 
Super Bowl, whether it is soy and the opportunities that 
creates, or whether it is just public health, I think using 
those opportunities, those angles of leverage, to elevate 
seafood as a aspirational protein in our nation is going to 
be--is going to have a major effect on reducing that stigma and 
beginning to allow opportunity for the industry that Mr. Kent 
spoke so eloquently about, that Dr. Lucas has spoken so 
eloquently about, allow for that industry to thrive and to 
grow.
    The Chairman. And how does the restaurant industry, how do 
people like yourself, chefs, get the message out about the 
health and qualitative advantages of seafood relative to other 
forms of protein?
    Mr. Seaver. Quite honestly, unfortunately, a lot of us 
spend our time combating negative messaging, and there is so 
much misperception and negative messaging around seafood, and 
part of this is that there has not been a very concerted effort 
to go pro-seafood information. It is a very fractured industry 
unfortunately as we look at when we're talking about imports, 
exports, the domestically produced, farmed, wild, even the 
seafood industry internally doesn't necessarily always have a 
positive narrative about itself. And so when we combat, when we 
try and talk about seafood, unfortunately we're oftentimes 
dismissing the negatives.
    And having the opportunity, especially with colleges and 
universities, which offer the opportunity to really engage, and 
you were saying the state extension programs and using the 
academia. Well, hey, let's use the whole campus of academia as 
a methodology, as a means, to really increase the presence of 
seafood in our dialogue, cultural dialogue. And these are also 
state institutions that have massive purchasing power that 
maybe likely won't be producing or using very high-end 
products, but certainly can provide opportunity I think to 
invest in and be sort of the building block contractors for the 
seafood being produced. Thank you.
    The Chairman. Great. All right.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman.
    And thank you all for being here and for your excellent 
testimony. Connecticut has a long and historic involvement in 
shellfish and aquaculture and generally the commitment to the 
environmental treasures that are reflected in this important 
work. And so I would like to begin by asking you about the 
potential dangers of offshore drilling to aquaculture and the 
kinds of interests it represents. Are you concerned with 
offshore drilling as a potential danger?
    Mr. Kent. We actually have in Santa Barbara, California, we 
have an offshore farm that's growing mussels, and Santa Barbara 
is probably the center of our oil industry in California. 
Certainly, a leak, a spill, or something would have a 
devastating effect on a farm. At the same time, the increased 
infrastructure in the ports that support offshore drilling can 
be supportive of aquaculture as well. When we originally were 
proposing a farm, it was off the coast of Ventura, and they 
spotted the dock where the crew boats leave to go out to the 
platforms was right--was the same dock that the commercial 
fishermen offload their product at. So having that working 
waterfront is extremely valuable. That aside, I don't--other 
than the concerns about leakage or spills or something, I don't 
see that they're mutually exclusive.
    Dr. Lucas. Being from the Gulf of Mexico, we have a 
relationship with our oil industry. And so I speak to the same 
thing that Mr. Kent spoke to in terms of having the 
infrastructure that's already in place. Also, I know several of 
the investors have reached out to some of the oil companies 
that may be decommissioning rigs for the potential to use those 
rigs as a station in which they can house people, fly in 
product and stuff, and have their farm far enough away that 
that's an easier access. Deep water in the Gulf of Mexico is 
not found right offshore, we have to go a good ways, and so 
looking for those logistics has been important.
    So other than the things that Mr. Kent has spoke to, we 
understand that there is a greater good for energy producing as 
well as there is a greater good for reducing the seafood trade 
deficit through aquaculture production.
    Senator Blumenthal. Let me ask you about the budget that 
we've received from the administration, which cuts back on a 
number of programs that I think are important to aquaculture; 
for example, the NOAA Sea Grant Program. Is that kind of 
program important to you?
    Dr. Lucas. That kind of program is very important to us. In 
terms of how you see the agricultural industry using land-grant 
institutions for extension services and getting those products 
out to farmers, the same thing is true of Sea Grant. They work 
with industry and they work with academics to bridge that gap. 
So they are able to work with the academics and partner with 
the industry to work on what industry needs and then transfer 
that technology over. So they are our extension, and that is 
very critical to helping us advance aquaculture. They have been 
a huge player in helping with aquaculture technology.
    Mr. Seaver. If I may briefly speak to that as well, Sea 
Grants are inherently attached to and very close to the next 
generation that's coming up. And in my home state of Maine, 
this is a very big deal that aquaculture presents the 
opportunity of innovation, of excitement, for that young son or 
daughter to stay in their community, to combat the brain drain 
of rural coastal communities, and to begin to rebuild the 
vibrancy and heritage of those areas, and that slightly less 
tangible result of that Sea Grant impact, but----
    Senator Blumenthal. It's still important.
    Mr. Seaver.--it's very intangible on the community. Thank 
you.
    Mr. Kent. Just on a personal note, as a former Sea Grant 
trainee, I think it's a hell of a good program and certainly 
helped me with my career and got me introduced immediately from 
the academic sector right into the research field, and I think 
that's critical, is giving students that experience and set 
them on the course to the practical side of science.
    Senator Blumenthal. Let me just close because my time is 
limited by saying that there are--and I appreciate that 
perspective on Sea Grant. Another Federal program is the 
Seafood Import Monitoring Program that establishes reporting 
and recordkeeping requirements for certain kinds of fish so as 
to make sure of their origin. The program unfortunately applies 
only to 13 species. So much of the world's seafood comes from 
sources that could be misrepresented or mislabeled. I've worked 
with a number of my colleagues on this issue, including Senator 
Wicker, from Mississippi, whom you no doubt know. And I'm 
hopeful that we can expand this program.
    In the meantime, domestic aquaculture could overcome some 
of these issues, I think, and ensuring confidence in the 
origins and integrity of our seafood supplies. So I hope that 
this point will be emphasized as well, and I'm assuming that 
all of our panelists would agree with that point today. And I'm 
not going to overstay my time, but thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Seaver, thank you and all the panelists for being here. 
Bristol Bay supports about 20,000 jobs in commercial and 
recreational fisheries and as well as restaurants, which I'm 
guessing you're here to represent. Recently, the EPA announced 
they would not withdraw the proposed determination under the 
Clean Water Act. However, they are not finalizing it either, so 
it's a question about what remains and what they will do.
    How important is Bristol Bay salmon to the restaurant 
industry?
    Mr. Seaver. Bristol Bay salmon and all that it represents--
the jobs, the culture, the heritage, the communities, that is 
the--those are the very basic underpinnings of what restaurants 
serve both in terms of what we give, but also who we serve.
    Bristol Bay salmon specifically is--you know, we have 
strategic oil reserves in this Nation. That is our strategic 
salmon reserve. That is our strategic food reserve. In fact, it 
is also our strategic example of how and why fisheries should 
be managed as we do. I don't think that there is--it's hard to 
say that one fishery is more important than another, but I 
think Bristol Bay sets the example of what all fisheries should 
be, and should be held up and preserved as an American icon in 
that way, and everything possible should be done to protect 
them--the fisheries--and those who fish them.
    Senator Cantwell. Thank you.
    Mr. Kent, well, or in general to our panelists, so last 
August we had a pen holding more than 300,000 farmed Atlantic 
salmon that broke and released thousands of Atlantic salmon 
into the Salish Sea. So this caused very great concern to us 
because the wild Pacific salmon compete for resources and prey 
and obviously they can carry different diseases. So the 
negative impact on Pacific salmon is something that we just 
can't sit still for. So we need to do something.
    The Federal response to the pen failure was very 
uncoordinated in the sense that this pen hadn't been examined 
since 1987. This partly falls under the jurisdiction of the 
Army Corps and partly under NOAA. We also just had a mussel 
issue in the Northwest, too.
    So who owns the--particularly when it comes to this netting 
issue? If there had been an inspection in both of these cases, 
we might have determined something before. So I don't know who 
the best person to answer this is.
    Mr. Kent. I don't know that I am, but I'll take a shot at 
it.
    Senator Cantwell. Yes. Thank you.
    Mr. Kent. It was a very unfortunate occurrence that 
happened, and equipment has to be maintained, and maybe there 
is a little complacency that occurs within an industry that has 
been operating for 40 years and is using technology from back 
40 years ago. Out in the open ocean, it's a much more rigorous 
environment, and the cages have to be inspected more often. You 
have moorings that are going down to 300 feet of depth, and 
that's something where a diver doesn't swim down there 
everyday, but remotely operated robots can do that. And that 
would be part of what we're trying to do.
    And more importantly than anything else, I know there has 
been a lot of statement about, well, the fish appear to be 
malnourished and they look like they're healthy enough and they 
didn't think there was going to be an adverse impact in some of 
the reports that I've seen, but the reality is, why are we 
trying to grow species that are not native to a given area in a 
new area? We should be growing Pacific salmon in the Pacific, 
white sea bass in California, red drum in the Gulf, and 
Atlantic salmon on the Atlantic coast. Let's grow the species 
that are appropriate and not move these things around.
    Some California abalone farmers imported South African 
abalone one time to see if they could grow nicely in San Diego 
and ended up with a parasite, the sabellid worm, that not only 
spread through the farms, but it spread into the wild 
population. This is the kind of commonsense thing that really 
should be avoided, and, you know, trying to--I don't have a--I 
don't have a solution for how to deal with the Atlantic salmon 
issue in Puget Sound, but it's not the direction I would go in, 
in starting a farm. There are species in each region that 
should be grown in that region.
    Senator Cantwell. Nor would I. Nor would I.
    Anybody else?
    Dr. Lucas, did you want to mention something there?
    Dr. Lucas. I echo what Mr. Kent said. I'll also say that, 
you know, we've improved a lot of technologies now. I mean, the 
new materials that are coming out for some of these cages as 
well as the remote detection devices and stuff, industry needs 
to advance, like you said, and look at some of these things, 
especially for offshore. And I think that the intensive 
monitoring programs that go along with that can go a long way 
in helping to prevent an instance like you had.
    Senator Cantwell. Well, I'm definitely going to look in 
further to whether the Army Corps and NOAA need to play a 
stronger role in making sure that things are being inspected. 
We can't have something there since 1987 not being inspected. I 
guarantee you, protecting the wild Pacific coast salmon is 
something our country believes in, and we're going to fight to 
make sure that it is protected.
    Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman.
    I appreciate the witnesses here. I appreciate Senator 
Cantwell's comments, all of which I agree with. And, Mr. 
Seaver, your comments on Bristol Bay salmon were also something 
that was music to my ears. You didn't add that farm-raised 
seafood doesn't even remotely compete with wild Alaska seafood, 
whether it's Bristol Bay salmon or otherwise, in terms of taste 
and texture. And I guarantee you if every single person in this 
room did a blind taste test, it would be 100 percent for the 
wild Alaska salmon. But I know that's not what you're here to 
testify about.
    [Laughter.]
    Senator Sullivan. I think that's a fact, and maybe I can 
submit something for the record that makes it 100 percent 
clear.
    But, you know, Mr. Kent, I actually want to follow up on 
what Senator Cantwell asked about the massive Atlantic salmon 
escapement from an operation in Washington State, and, of 
course, that brought enormous concern to Alaskan fishermen in 
terms of the impacts on healthy stocks. And do you think there 
is something we can do? It does seem somewhat uncoordinated, 
but a policy perhaps, that you mentioned that just makes sense, 
hey, if there's a risk, and there is always going to be a risk, 
right? I mean, we want to minimize that risk certainly, but if 
there is a risk, does it make sense to kind of do this 
checkerboard approach to having species that have no business 
being any part of that world out in that part of the world when 
there's a risk? I mean, it seems to me that might be a policy 
area that we could pursue that might make sense. Right? Why do 
we want very foreign species in an area if there is a risk that 
you could see some kind of escapement that could cause damage 
and certainly cause worry to the fishermen who fish for the 
wild Alaska salmon or other wild Alaskan products?
    Mr. Kent. It's a very good question. And I don't know 
exactly what agency would handle it. I go back to this concept 
of best management practices. My recommendation would be that 
in an open system that's out in the environment, that we ought 
to be growing the species that are native to that area. In a 
recirculating system, of course, you can grow something that, 
you know, in Minnesota we can grow a foreign species in an 
enclosed tank without much chance of that escaping and 
endangering endemic species in the area.
    And then back to Mr. Seaver's point, I think it's also 
playing to the idea of the culture within a given area. If 
we're going to be growing species that are native to a certain 
area, there's a grouper in the Gulf, I mean there's this 
respect for that fish down there, salmon in the Pacific 
Northwest, cod in other parts of the country. White sea bass in 
San Diego, red drum in the Gulf. We have these existing 
fisheries that aren't in some cases able to produce enough of 
what we need. And building off of that market regionally I 
think is of benefit. There's no reason why we can't bring a red 
drum fillet into San Diego and enjoy it, or a white sea bass 
into Apalachicola, Florida, but at the same time, we don't want 
to grow them there. We want to grow them in our own regions.
    Senator Sullivan. Let me ask kind of a related question. 
It's kind of a federalism, and, Dr. Lucas, maybe you can start 
by addressing it in a little bit of background. Since 1990, 
finfish aquaculture has been prohibited in Alaska's state 
waters. However, Alaska does choose to allow certain forms of 
aquaculture, such as salmon fishery enhancement through 
hatcheries and aquatic farming of shellfish and seaweeds. And 
in 2016, we created, in my state, the Alaska Mariculture Task 
Force to help accelerate development of mariculture.
    But I think it begs a question: How can the Federal 
Government help coastal states, like mine, develop the types of 
aquaculture that they choose to that have the support of the 
citizens, like some elements of mariculture, while also 
maintaining their right to choose what not to do? And this 
discussion kind of impacts that.
    So there needs to be, in my view, a very healthy federalism 
component here about what a state and its citizens and its 
fishermen support. How can we do that better?
    Dr. Lucas. Well, to begin with, I know social license, that 
we call it, or industry, they are looking to go into an area 
where they're accepted. And that's part of going into an area 
where you're doing species that are already part of the 
heritage and already part of the culture and already are an 
important part of the community. The industry looks for things 
like that. They want to work with their local communities.
    I think in the case of states, there are a couple of 
options for states that do have CZMA through consistency, that 
they could not allow certain species that weren't part of their 
state plans for states that don't have the CZMA. I think 
potentially doing some kind of opting program where you could 
opt out of, you know, species that you didn't--that your state 
doesn't wish to engage in, as long as there is some certainty 
there that--I mean, you can't just opt in 1 year and opt out. 
You want some kind of plan as to how those were chosen, and I 
do believe Alaska has a law that doesn't allow for the finfish 
aquaculture, so that would probably be something that would 
have to grow in support from the public before that law was 
even changed in your state to allow for it. You do have great 
shellfish work and even some of the seaweeds, the macroalgae, 
I've been working with some of the people from Alaska on that, 
and so I think that's great. But it's part of the social 
acceptance.
    We, as a community, need to get out there and engage in the 
public in terms of what aquaculture really looks like because 
what they see--what they see is some of these farms from 
overseas, and these areas that don't have the robust 
environmental regulations that we have do not have the robust 
regulations for drugs, such as through the FDA, don't have the 
transparency that we have. And when people can see that 
transparency and they can see a video, like the QR codes we 
were talking about where you take a picture and you see the 
farmer out there working on their farm and bringing their fish 
in to the dock, you can help create that local farm to the 
table, that I'm helping my community, I am helping people with 
jobs, and I am able to eat a local, safe, sustainable product.
    And so I think there is a role for states. I don't think, 
you know--if you don't want somebody there in terms of 
industry, they likely also don't want to be there because that 
would be combative. So I think states do have a role in saying 
what species occur off their coastlines.
    Senator Sullivan. Great. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Sullivan.
    And, Senator Cantwell, anything else?
    Senator Cantwell. I can't wait till Copper River salmon 
season.
    [Laughter.]
    The Chairman. OK. I want to referee this one right one 
here, but . . .
    [Laughter.]
    Senator Cantwell. We're in agreement.
    The Chairman. They're in agreement. Yes. All right. Yes, 
both of you have a great interest in this subject, and it's an 
important one. And I appreciate our witnesses' testimony today 
and insights about how we can grow and strengthen and improve 
the impact of aquaculture on the economy here in the U.S. When 
we are getting so much of the seafood that we consume in this 
country from other parts around the world, it makes no sense.
    So we appreciate the good work that all of you are doing on 
that front and look forward to partnering with you in the 
future and hope that you will share with us your ideas about 
things that we can be doing along the lines of some of the 
things you shared today.
    And I will ask you, if you will, in response to written 
questions, and we'll keep the record open for a couple of weeks 
so that Senators on the Committee, some who weren't here and 
some who were, can follow up with additional questions that 
they might want to put on the record. And if you could get 
those back to us as quickly as possible, that would be greatly 
appreciated.
    But thanks again for your testimony. And with that this 
hearing is adjourned.
    [Whereupon, at 11:39 a.m., the hearing was adjourned.]

                            A P P E N D I X

                           Stronger America Through Seafood
                                      Wilmington, DE, Feb. 13, 2018

Hon. John Thune, Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.
Hon. Bill Nelson, Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson,

    On behalf of the Stronger America Through Seafood (SATS) Campaign, 
we would like to thank you for calling a full Committee hearing on the 
critical issue of domestic aquaculture on Jan. 30, 2018. We ask that 
this letter of support for the Committee's leadership on domestic 
aquaculture expansion be included in the written record of the hearing.
    With support from seafood leaders from across the country, SATS is 
uniting American businesses, consumers, health advocates, and NGOs 
behind a single, positive message regarding the ecological, societal 
and economic benefits of U.S. seafood production. It was invigorating 
to hear a diverse panel of witnesses and a bi-partisan panel of 
Senators all agree on the importance of increasing U.S. production of 
healthful, sustainable, and affordable seafood. With this letter, we 
ask for your continued leadership and partnership in this effort.
    Wild fish harvests are and always will be an important part of 
seafood supply. There is, however, a significant economic and social 
opportunity for aquaculture to supplement wild harvests in both 
domestic and international markets. Aquaculture is one of the fastest 
growing sustainable forms of food production and has the unique 
potential to improve food security and nutrition, enhance coastal 
resiliency, create quality jobs, help restore species and habitats, and 
ensure that seafood (both wild caught and farmed) continues to be an 
important part of the global food supply.
    Unfortunately, domestic aquaculture development is currently 
constrained by disjointed Federal leadership and numerous regulatory 
hurdles, including overlapping jurisdiction of federal, state, 
regional, county and municipal governments, and the absence of a 
predictable, affordable and efficient permitting process, particularly 
in marine environments.
    To overcome these regulatory hurdles and lay groundwork for 
strengthening the U.S. aquaculture industry, Congress must demonstrate 
unequivocal willingness to streamline the existing bureaucracy and 
support domestic aquaculture development. We strongly recommend 
legislation to establish the National Oceanic and Atmospheric 
Administration (NOAA) as the lead agency in charge of overseeing 
coordination among all Federal partners on U.S. aquaculture interests 
and on U.S. aquaculture regulation in Federal waters. The legislation 
should task NOAA with implementing coordinated, consistent and 
efficient regulatory processes for the marine aquaculture sector, like 
that outlined in Goal #1 of NOAA Fisheries' Marine Aquaculture Strategy 
for FY 2016-2020 \1\ and make funds available for these activities.
---------------------------------------------------------------------------
    \1\ http://www.nmfs.noaa.gov/aquaculture/docs/aquaculture_docs/
aquaculture_strategic_plan_
final.pdf
---------------------------------------------------------------------------
    Legislation should also empower NOAA with the authority to remain a 
strong advocate for all marine aquaculture, facilitate streamlined 
permitting in Federal waters and increase coordination among agencies 
with jurisdiction in state waters. Further, as with any new industrial 
venture, the U.S. marine aquaculture industry will be hugely capitol-
intensive, particularly during the first few decades. As such, 
legislation should provide regulatory certainty and sufficient permit 
or lease length to maximize success while effectively de-risking the 
project for potential investors. Attached, please find a document 
titled ``Investment Considerations Regarding U.S. Offshore Marine 
Aquaculture'' prepared by Max Holtzman, a partner at Pontos Aqua 
Advisory and a Board Member of the Stronger America Through Seafood 
campaign, for more background on this topic.
    The Stronger America through Seafood Campaign's Board of Directors 
will be in Washington, D.C. March 14--15, 2018 and we would like to 
meet with Members of the Committee at that time to discuss these items 
in greater depth. Please contact us at your convenience to arrange for 
this meeting. By working together, we will see the responsible 
development of commercial-scale, affordable aquaculture become a 
reality for the betterment of our businesses and of our citizens.
            Sincerely,
                                             Kathryn Unger,
                                                         President.
                                            Tony Dal Ponte,
                                                    Vice President.
                                              Max Holtzman,
                                                         Secretary.
                                                Bill Dewey,
                                                         Treasurer.
                                 ______
                                 
  Investment Considerations Regarding U.S. Offshore Marine Aquaculture
    There have been many conversations related to the length of time of 
a permit or lease for an offshore marine aquaculture operation 
contemplated in the proposed Senate Bill related to the U.S. 
Aquaculture industry. This brief summary attempts present a view from 
members of the investment community related to permit or lease length 
and risk assessment in the evaluation of potential investment in an 
offshore aquaculture operation.
    While there are multiple risk factors that must be fully evaluated 
and properly de-risked in this type of investment analysis, this 
current discussion is related to one sliver of this de-risking process: 
The length of time of a permit or lease for a certain operation.
    There is no ``magic number'' related to the length of time either a 
lease or permit should be, however the longer this time period the more 
benefits will accrue to the entrepreneurs and companies that wish to 
start-up this type of operation. A lease or permit with a length of 
time greater than 20 years would provide benefits to the borrower/
investee that maximize the best chance for success while more 
effectively de-risking the project for potential investors. A brief 
overview of the reasons for this assumption are included herein.
    First, it is helpful to understand the capital intensity of 
offshore aquaculture operations. Of all of the factors that contribute 
to this capital intensity, the main drivers in offshore operations are 
the high cost of cages and infrastructure to support these operations 
along with very high working capital requirements. These operations 
typically involve long cycle species which require high amounts of 
feed, labor and depreciation before they reach the market. Below is 
further detail of the costs associated with these operations, both 
offshore, and the necessary onshore support:

    Offshore requirements:

  <bullet> Offshore equipment including cages, barges and service 
        vessels for feeding, harvest, monitoring and general servicing;

  <bullet> Remote monitoring equipment, remote underwater camera 
        systems, pathogen detection and monitoring;

  <bullet> Harvesting equipment, including fish pumps, insulated bins 
        and other necessary equipment;

  <bullet> Labor costs

    <ctr-circle> Labor related to construction of site which varies 
            across production methods;

    <ctr-circle> FTE's for operations and maintenance;

  <bullet> Insurance, relevant bonding other capital requirements;

    Onshore requirements:

  <bullet> Research, development and testing of species suitable for 
        relevant siting;

  <bullet> Maintenance of fleet of vessels to move personnel, equipment 
        and feed from shore to site;

  <bullet> Dockage of vessels;

  <bullet> Storage of feed (climate controlled), equipment;

  <bullet> Harvesting and processing equipment including industrial ice 
        machinery, adequate equipment to move ice and fish to various 
        locations;

  <bullet> If integrated operation with hatchery, full hatchery and 
        recirculating aquaculture system to operate hatchery;

  <bullet> Hatchery personnel and equipment;

  <bullet> Land, buildings, personnel and equipment necessary for 
        hatchery operation;

  <bullet> If integrated operation with feed mill: full feed mill and 
        capex necessary to construct feedmill including land, 
        buildings, personnel and equipment;

    Specific factors related to the need for long lease or permit 
length:

  1.  The highly capital-intensive nature of these operations: Offshore 
        aquaculture operations are multi-million-dollar agricultural 
        operations with very high initial startup and working capital 
        requirements. There is an often misunderstanding that these 
        operations are simply cages in the water full of fish, when in 
        reality, sustainable modern offshore marine aquaculture relies 
        on cutting edge technology, equipment and highly trained 
        personnel to construct, operate and maintain these facilities. 
        Equipment and facilities are located offshore, and in addition 
        there is a vast land-based network of support infrastructure 
        and personnel to run these operations. While these operations 
        create hundreds of jobs throughout the supply chain necessary 
        to support these operations, the highly capital-intensive 
        nature of start-up and working capital is a major factor 
        related to the necessity of a longer lease or permit period.

  2.  Long length of grow-out from hatch to harvest: Many species 
        suitable for offshore aquaculture operations can take anywhere 
        from 1-3 years to reach harvest from the time of eggs hatching. 
        This longer than typical harvest times compared to terrestrial 
        agricultural protein producers brings additional risk. However, 
        just as with our land based producers, the dynamics are the 
        same: The longer you are controlling a live animal, the more 
        issues you will need to contend with including adverse weather, 
        rising costs of inputs such as feed, risk of disease and other 
        unpredictable but known adversaries. Accordingly, investors 
        will rely on longer capital cycles to flatten out this risk 
        curve across multiple harvests to reduce risk over increased 
        time and volume of product.

  3.  Risk of Price Volatility: Many of the species suitable for 
        offshore aquaculture operations have pricing that are based on 
        and behave like agricultural commodities. The cyclical nature 
        of the pricing of these products then demands that the 
        investment periods must be longer than the cycles themselves. 
        If not, the producer will face much greater risk as you attempt 
        to time your entry and exit within these markets. Long lease or 
        permit lengths allow a producer to both withstand and manage 
        the cyclical nature of commodities and transform unbeatable 
        risk in the short term into manageable volatility in the long 
        run.

  4.  Ability to exit the investment and bring new investors: For a 
        multitude of reasons, owners, operators and investors exit or 
        sell operations during the course of a business. The value of a 
        business will in part be valued by the length of time that 
        remains on a lease or permit. If the initial length of time of 
        the permit or lease is too short, then any subsequent investor 
        will only be able to assign value to the operation based on the 
        remaining time that operation retains its certainty to operate, 
        and thus its ability to generate cash flow.

  5.  Risk and Return Expectations: Different investors have different 
        appetites for risk and return requirements within certain asset 
        classes. Well known in any investment is the higher the risk, 
        the higher the expected returns of the investor. If operating 
        within a short time frame, and therefore higher risk, investors 
        may rightly seek returns that are not aligned with the 
        intrinsic potential of the business. However, if you are able 
        to extend the investment period and decrease the risk, you have 
        the potential to capture investment with more reasonable 
        returns and more aligned with the de-risked intrinsic potential 
        of offshore operations.
                                 ______
                                 
       Prepared Statement of the National Aquaculture Association

                   Achieving Sustainable Sea Farming

        ``We must plant the sea and herd its animals using the sea as 
        farmers instead of hunters. That is what civilization is all 
        about--farming replacing hunting.''
        Jacques-Yves Cousteau

    The National Aquaculture Association \1\ is a U.S. producer-based, 
non-profit association incorporated in 1991 that supports the 
establishment of governmental programs that further the common interest 
of our membership, both as individual producers and as members of the 
aquaculture community. For over 27 years NAA has been the united voice 
of the domestic aquaculture sector committed to the continued growth of 
our industry, working with state and Federal governments to create a 
business climate conducive to our success, and fostering cost-effective 
environmental stewardship and sustainability.
---------------------------------------------------------------------------
    \1\ National Aquaculture Association, PO Box 12759, Tallahassee, FL 
32317; Telephone: 850-216-2400; E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5b353a3a1b2f333e353a3a75353e2f">[email&#160;protected]</a>; Website: http:/
/thenaa.net/.
---------------------------------------------------------------------------
    The NAA offers the following recommendations with respect to 
drafting U.S. marine aquaculture legislation to support the creation of 
a commercially viable framework for U.S. aquaculturists to grow, 
handle, transport and sell marine finfish, shellfish (clams, oysters, 
mussels or scallops) and seaweed from farms located in the Exclusive 
Economic Zone of the United States.
Advancing Public Health, Food Security and Sustainable Economic Growth
    Offshore marine aquaculture in the Exclusive Economic Zone holds 
tremendous potential for advancing the public health, food security and 
economic interests of Americans, but those interests can only be served 
if government provides the legal authorities for the private sector to 
fulfill that mission without unwarranted regulatory obstacles. Large-
scale marine aquaculture production in the United States would create 
the ability to:

  <bullet> Close a significant gap in U.S. food security (availability) 
        through the farming of seafood products in U.S. waters rather 
        than relying as the United States currently does on foreign 
        seafood sources for 90 percent of the seafood consumed by our 
        citizens.

  <bullet> Create ancillary equipment and service businesses and new 
        jobs within coastal and inland communities.

  <bullet> Accelerate technological development to reduce production 
        costs and minimize adverse environmental effects.

  <bullet> Maintain working waterfronts and build upon the existing and 
        unique knowledge, skills and abilities possessed by commercial 
        fishers.

    While these projections are well-documented,\2\ the United States 
has yet to make any significant advances in U.S. marine aquaculture 
production in the 38 years since passage of the National Aquaculture 
Act of 1980. Aquaculture production is approximately 45,500 tons valued 
at $327 million and supplies about 3 percent of U.S. seafood 
consumption. Federally managed waters beyond coastal state boundaries, 
termed the Exclusive Economic Zone, encompass 4.4 million square miles 
(11.3 million square kilometers). A U.S. study estimated that 195 
square miles (500 sq. km) of ocean, managed under existing regulations, 
could produce 1.3 billion pounds (600,000 metric tons) or more of high 
quality seafood.\3\ Theoretically, the farming of 970 sq. miles (2,500 
sq. km), an area representing .0002 percent of the Exclusive Economic 
Zone, less than half the size of Delaware, would double U.S. edible 
seafood production or an area the size of the Pentagon could produce 
220 million pounds (100,000 MT). A doubling of U.S. aquaculture 
production to about 1 million tons could create an estimated additional 
50,000 farm and non-farm jobs.\4\
---------------------------------------------------------------------------
    \2\ Rubino, Michael (ed). 2008. Offshore Aquaculture in the United 
States: Economic Considerations, Implications & Opportunities. U.S. 
Department of Commerce; Silver Spring, MD; USA. NOAA Technical 
Memorandum NMFS F/SPO-103
    \3\ Nash, C.E. 2004. Achieving Policy Objectives to Increase the 
Value of the Seafood Industry in the United States: The Technical 
Feasibility and Associated Constraints. Food Policy 29:621-641.
    \4\ Knapp, G. and M.C. Rubino. 2016. The political economics of 
marine aquaculture in the United States. Reviews in Fisheries Science 
and Aquaculture 24(3): 213-229.
---------------------------------------------------------------------------
Fish Farming is Inherently Efficient
    Farmed and wild-caught fish, shellfish and sea vegetables have been 
recognized as critical components to achieving global food security and 
nutrition. Farmed and wild fish production have been the main 
contributor to the 61 percent increase in world protein consumption, 
fish are very efficient converters of feed into protein, and aquatic 
animal production systems have a lower carbon footprint, lower nitrogen 
and phosphorus losses and in the case of shellfish and sea vegetable 
production remove carbon, nitrogen and phosphorus from the environment. 
The inherent energy and feed advantages of fish are derived from the 
``cold-blooded'' nature, meaning they expend little to no energy to 
maintain a constant body temperature, and the physical support water 
provides to directs growth to protein and not a bony muscular-skeletal 
structure that is always fighting gravity.\5\
---------------------------------------------------------------------------
    \5\ Bene, et al., 2015. Feeding 9 billion by 2050--Putting fish 
back on the menu. Food Security 7(2): 261-274 (https://
link.springer.com/article/10.1007/s12571-015-0427-z accessed February 
1, 2018).
---------------------------------------------------------------------------
Current Regulations are Proven and Effective
    Over the last 20 years, rather than acknowledging the many advances 
in marine aquaculture production practices and successful management 
strategies for adverse environmental impacts, many in the environmental 
community continue to attribute a variety of potential adverse 
environmental effects to aquaculture based on outdated production 
methods and standards.\6\ We note that the U.S. Environmental 
Protection Agency (EPA) has held authority to regulate discharges from 
fish farms (nutrients, chemicals and solid waste) under several 
iterations of the Clean Water Act since the 1970s. More recently, 
environmental groups sought EPA reevaluation of the Clean standards 
applied to aquaculture. During a four-year period, 2000-04, the agency 
completed a detailed technical review of its then current standards, 
and modern aquaculture methods, including those used for marine 
aquaculture. Formal rulemaking was conducted to ensure that Clean Water 
Act regulations for aquaculture met all standards of environmental 
protection mandated by Congress. In that process, the EPA determined, 
contrary to the position of environmental groups, that the proposed and 
adopted revised regulations assured environmental protection.
---------------------------------------------------------------------------
    \6\ Goldburg, R. and T. Triplett. 1997. Murky Waters: Environmental 
Effects of Aquaculture in the United States. Environmental Defense 
Fund, New York NY
---------------------------------------------------------------------------
    Other current Federal regulatory authorities, unilaterally or in 
partnership with the states, exist to protect navigation and 
navigational aids, water and benthic quality, food safety, drug and 
chemical use, aquatic animal health, endangered species, wild fishery 
stocks (with respect to potential aquaculture impacts to those 
populations), essential fish habitat, and the opportunity for coastal 
states to comment on proposed Federal permits and leases associated 
with offshore marine aquaculture. Existing law include, but are not 
limited to, the Animal Health Protection Act, Animal Medicinal Use Drug 
Clarification Act, Coastal Zone Management Act, Endangered Species Act, 
Federal Food Drug and Cosmetic Act, Federal Insecticide, Fungicide and 
Rodenticide Act, Federal Water Pollution Control Act (Clean Water Act), 
Lacey Act, Magnuson-Stevens Fishery Conservation and Management Act, 
Marine Mammal Protection Act, Migratory Bird Protection Act, National 
Environmental Policy Act Outer Continental Shelf Lands Act, and Rivers 
and Harbors Act. Through rulemaking, judicial rulings and an 
opportunity to comment on significant Federal permitting by other 
Federal agencies, the U.S. Environmental Protection Agency, National 
Oceanic and Atmospheric Administration, U.S. Department of Agriculture, 
U.S. Army Corps of Engineers, U.S. Coast Guard, U.S. Department of 
Defense, Federal Aviation Administration, U.S. Fish and Wildlife 
Service, Bureau of Ocean and Energy Management, and state agencies 
(agriculture, natural resources, and environmental protection) have an 
important regulatory role relative to offshore aquaculture and, in 
particular, the coastal states are provided an opportunity to comment 
on proposed Federal permits and leases associated with offshore marine 
aquaculture.\7\
---------------------------------------------------------------------------
    \7\ Engle, C.R. and N. M. Stone. 2013. Competitiveness of U.S. 
aquaculture within the current U.S. regulatory framework. Aquaculture 
Economics and Management 17(3): 251-280.
---------------------------------------------------------------------------
    Current regulatory authority exists to appropriately protect marine 
water quality and benthic environmental systems, manage fish escapes, 
require responsible drug and chemical use, insure safe navigation, and 
assure consumers that they will have access to safe foods; although, it 
has been argued, and we agree, that:

        The stringency of the regulatory environment in the United 
        States has increased in recent years in terms of both the 
        number and complexity of regulations that affect U.S. 
        aquaculture. Especially difficult is the common lack of a lead 
        agency at both Federal and state levels to effectively 
        coordinate and streamline regulatory and permitting processes 
        that result in timely decisions and more certainty for 
        investment in new enterprises and expansion of existing 
        operations. The overall cumulative effect has been continued 
        increases in the regulatory costs and risk faced by aquaculture 
        growers in the United States.\8\
---------------------------------------------------------------------------
    \8\ Ibid at 274.
---------------------------------------------------------------------------
Atlantic Salmon in Puget Sound
    The potential environmental effects of the escape of Atlantic 
salmon in Puget Sound on Pacific salmon as a result of a net pen system 
that collapsed has created intense public and media speculation. 
Fortunately, several publications have examined this risk and other 
risks and reported that those risks are manageable or unlikely to be 
realized.\9\
---------------------------------------------------------------------------
    \9\ Nash, C.E. (editor). 2001. The net-pen salmon farming industry 
in the Pacific Northwest. U.S. Department of Commerce. NOAA Tech. Memo. 
NMFS-NWFSC-49 (http://www.westcoast
.fisheries.noaa.gov/publications/aquaculture/
noaa_memo_net_pen_salmon_farming_sept2001
.pdf accessed January 28, 2018).
    Waknitz, F.W., T.J. Tynan, C.E. Nash, R.N. Iwamoto, and L.G. 
Rutter. 2002. Review of potential impacts of Atlantic salmon culture on 
Puget Sound chinook salmon and Hood Canal summer-run chum salmon 
evolutionarily significant units. U.S. Department of Commerce. NOAA 
Tech. Memo. NMFS-NWFSC-53 http://www.westcoast.fisheries.noaa.gov/
publications/aquaculture/
waknitz.2002.nwfsc_tm53.reviewofpotentialimpacts.pdf accessed January 
28, 2018)
---------------------------------------------------------------------------
    We believe that when the potential effects associated with this 
escape are thoroughly analyzed this prior work will be confirmed. We 
are also hopeful that enough time will have passed to then allow a 
dispassionate discussion and reassessment of Atlantic salmon culture to 
occur. We are confident that this assessment will recognize that 
potential risks are being adequately managed under existing state and 
Federal regulations. It is also unfortunate, that currently little to 
no recognition of public and private investment to improve Atlantic 
salmon production characteristics (e.g., weight gain, feed 
efficiencies), human diet and nutrition, fish health, and reduced 
environmental effects through fish husbandry, domestication and 
technology gained by the global production of Atlantic salmon 
production has not been made known to the public.\10\
---------------------------------------------------------------------------
    \10\ Kumar, G. and C. R. Engle. 2016. Technological advances that 
led to growth of shrimp, salmon, and tilapia farming, Reviews in 
Fisheries Science and Aquaculture, 24(2): 136-152
---------------------------------------------------------------------------
    As summarized by Ganesh and Engle (2016) (internal citations 
deleted):

        The Atlantic salmon industry overcame several biological, 
        ecological, and disease constraints throughout its history. 
        Advanced automated feed monitoring systems provided greater 
        resource and environmental management efficiency. 
        Commercialization of genetic and vaccination programs improved 
        growth and survival while nutritional developments reduced the 
        use of fishmeal and oil while improving performance. Such 
        continued technological advances resulted in continuous growth 
        in Atlantic salmon production with significant reductions in 
        cost of production. The Atlantic salmon industry is one of the 
        leaders in terms of biological knowledge and production 
        technology, raising a very resource-efficient species that is 
        often termed ``the super-chicken of the sea.'' \11\
---------------------------------------------------------------------------
    \11\ Ibid at 145.
---------------------------------------------------------------------------
Research with Significant ROI
    Research supported by governmental agencies and the private sector 
has led to continuing improvements in reducing the use of essential 
fish meal and fish oil components in pelleted aquaculture feeds. 
Research programs within NOAA and USDA that focus on marine aquaculture 
are critical to U.S. aquaculture and to national efforts to reduce our 
trade deficit, create jobs and increase national security through the 
provision of wholesome domestic food sources. These aquaculture 
research efforts have benefited U.S. aquaculture by resolving complex 
biological, environmental, chemical, or public relations constraints to 
increase aquatic animal or plant production or sales. Research funds 
are not wasted public monies. An independent analysis focused on public 
investment in aquaculture research found an estimated 37-fold return 
for each research dollar spent since 2000.\12\
---------------------------------------------------------------------------
    \12\ Love, D.C., I. Gorski and J.P. Fry. 2017. An analysis of 
nearly one billion dollars of aquaculture grants made by the U.S. 
Federal Government from 1990 to 2015. Journal of the World Aquaculture 
Society 48:689-710.
---------------------------------------------------------------------------
States Are Managing Aquaculture
    Over the last 20 years, responsible environmental stewardship has 
become the proven business model in the state or territorial waters of 
Maine, Washington, Hawaii and Puerto Rico where commercial scale net 
pens have been operated to farm Atlantic salmon, Almaco jack or cobia 
and in the state waters of Alabama, Alaska, California, Connecticut, 
Florida, Hawaii, Louisiana, Maine, New Hampshire, New Jersey, New York, 
Maryland, Massachusetts, North Carolina, Oregon, Rhode Island, 
Virginia, South Carolina and Washington where shellfish farms have 
farmed abalone, clams, oysters, mussels or scallops. These farms have 
been managed in compliance with state and Federal regulations and the 
provisions of lease agreements with the states or territory. All such 
operations are conducted with regulatory transparency supported by 
environmental monitoring data and periodic reporting for these 
operations in publicly available documentation required by state and 
Federal agencies.
Creating Security of Tenure is Critical
    The limited scope of today's U.S. marine aquaculture industry 
simply will not substantially expand without access to the majority of 
offshore waters that are controlled by the Federal Government. However, 
access alone is not sufficient, and will not create the fertile 
environment for investment in U.S. marine aquaculture. What is needed 
is security for tenure (e.g., a lease) to allow U.S. aquaculture 
operations to operate in the Exclusive Economic Zone in compliance with 
existing regulatory programs that will provide a viable financial model 
(private investment and insurance) that will survive in the free 
market.
    Marine aquaculture facilities in the Exclusion Economic Zone must 
be provided security of tenure to occupy a location to the exclusion of 
other conflicting uses by means of a recognized and commercially 
understood legal agreement such as a lease granted by an appropriate 
Federal agency on behalf of the U.S. Government. Property rights in 
marine waters are typically available under state laws in state waters 
where marine aquaculture is recognized as a being in the public 
interest. This is typically done by means of a lease. The leasing of a 
public resource for commercial use appropriately requires payment for 
use of public space (i.e., rental payments). However, this use of 
public trust lands (offshore ``spaces'') must be not be confused with 
business models for industries that actually consume public trust 
resources (e.g., oil and gas resources that are owned in trust by the 
U.S. Government for the people).
    A viable offshore aquaculture operation will require the same level 
of commercial certainty and property rights available to land-based 
agricultural enterprises or those aquaculture farms located in state 
waters. Offshore aquaculture operations are complex and expensive 
facilities that require reasonable business planning and construction 
periods and phased development to provide economies of scale necessary 
to internalize the regulatory and operation costs. Offshore aquaculture 
leases should be renewable and should have initial terms of at least 25 
years in order to secure financing on commercially-viable terms. Leases 
should also be transferable to support potential sale or other transfer 
of a farm operation.
Regulatory Burden and Costs Stifle Small Business Innovation
    The majority of U.S. aquaculture producers are small business 
entities. The USDA Census of Aquaculture conducted in 2012 showed that 
86 percent of all aquaculture businesses had sales less than $500,000. 
The costs of regulatory compliance for small businesses are having 
devastating effects on the ability of these businesses not only to 
exist, but to expand or add capacity. Additionally, these same burdens 
are prohibiting new businesses from starting up, further exacerbating 
the issue.
    As a specific example, the average total regulatory cost on U.S. 
batfish/spearfish farms was $148,554 per farm, or $2,989 per acre of 
production.\13\ The regulatory cost burden composed 25 percent of total 
costs of baitfish/sportfish farms, making it one of the largest cost 
components in their businesses. Total cost to the U.S. baitfish/
sportfish industry was estimated to exceed $12 million. On 38 percent 
of the farms, the cost of regulations exceeded the value of profits on 
baitfish/sportfish farms.
---------------------------------------------------------------------------
    \13\ van Senten, J. and C.R. Engle. 2017. The cost of regulations 
on U.S. baitfish and Sportfish producers. Journal of the World 
Aquaculture Society. 48(3): 503-517.
---------------------------------------------------------------------------
    The data also revealed that only 1 percent of total regulatory 
costs were those of the fees for permits and licenses. The real burden 
of the regulatory environment was found to be the indirect costs 
associated with increased manpower costs for record-keeping, reporting, 
and applying for permits, farm changes to remain in compliance, and 
lost sales (that could not be replaced or re-directed to other markets) 
that were lost directly due to regulatory actions. Environmental 
management regulations composed 61 percent of the total regulatory cost 
burden in spite of representing only 17 percent of the total number of 
regulations with which farms had to comply. The regulatory burden was 
substantially greater on smaller farms ($5,533 per acre) than on larger 
farms ($321 per acre), and very likely has contributed to the 29 
percent decline in the number of small baitfish/sportfish farms in the 
United States as compared to no decline in the number of large farms 
from 2005 to 2012.
Seafood Safety from Farm to Plate
    The U.S. domestic aquaculture industry is committed to supplying 
consumers with consistent, high quality, safe products that are 
produced in an environmentally sound manner. Numerous Federal and state 
agencies are involved with maintaining the wholesome attributes of 
farm-raised seafood. The U.S. Food and Drug Administration works with 
state departments of agriculture, the Association of Food and Drug 
Officials, and the American Association of Feed Control Officials to 
regulate aquaculture food handling and processing and the manufacture 
of feeds to ensure that they are safe and do not contain contaminants 
or illegal substances. The U.S. Department of Agriculture inspects the 
processing of catfish and tests catfish products, foreign and domestic, 
for contaminants.
    The Interstate Shellfish Sanitation Conference in cooperation with 
the U.S. Food and Drug Administration and state agencies administers a 
certification program requiring all shellfish dealers to handle, 
process, and ship shellfish under sanitary conditions and maintain 
records that the shellfish were harvested from approved waters. State 
agencies establish standards for shellfish growing areas and regularly 
monitor water quality to make sure that growing waters meet those 
standards.
    Fish and shellfish packers, warehouses, and processors must comply 
with the mandatory requirements of the Hazard Analysis Critical Control 
Point (HACCP) Program administered by the U.S. Food and Drug 
Administration. The program identifies potential food safety hazards 
and develops strategies to help ensure that they do not occur. New 
rules by the U.S. Food and Drug
    Administration authorized by the Food Safety Modernization Act have 
added additional regulations for the processing, handling and 
transportation of animal feeds and human food. All of these controls 
help to make farm-raised seafood products safe and wholesome foods.
The United States as a World Leader in Marine Aquaculture
    The United States is not a world leader in sustainable aquaculture 
production by volume or value but we are in the thoughtful and rigorous 
development of regulatory and nonregulatory production practices, 
animal nutrition and health management, and the efficient processing 
and distribution of high-quality, wholesome foods. A recent global 
analysis of global marine aquaculture potential concluded with a 
statement that is very relevant to U.S. marine aquaculture in 
highlights the unlimited potential of the United States to be a global 
leader in sustainability, technology and production (citations 
deleted):

        Given the significant potential for marine aquaculture, it is 
        perhaps surprising that the development of new farms is rare. 
        Restrictive regulatory regimes, high costs, economic 
        uncertainty, lack of investment capital, competition and 
        limitations on knowledge transfer into new regions are often 
        cited as impediments to aquaculture development. In addition, 
        concerns surrounding feed sustainability, ocean health and 
        impacts on wild fisheries have created resistance to marine 
        aquaculture development in some areas. While ongoing and 
        significant progress has been made in addressing sustainability 
        issues with marine aquaculture, continued focus on these issues 
        and dedication to ensuring best practices will be a crucial 
        element shaping the future of marine aquaculture. Both the 
        cultural and economic dimensions of development and the 
        management and regulatory systems are critically important to 
        understanding realistic growth trajectories and the 
        repercussions of this growth. Our results show that potential 
        exists for aquaculture to continue its rapid expansion, but 
        more careful analysis and forward-thinking policies will be 
        necessary to ensure that this growth enhances the well-being of 
        people while maintaining, and perhaps enhancing, vibrant and 
        resilient ocean ecosystems.\14\
---------------------------------------------------------------------------
    \14\ Gentry, et al., 2017. Mapping the global potential for marine 
aquaculture. Nature Ecology and Evolution 1:1317-1324.

    The National Aquaculture Association requests the U.S. Senate 
Committee on Commerce, Science, and Transportation create, introduce 
and shepherd national legislation to lead the world and benefit the 
Nation. It would be our honor and privilege to assist in this effort as 
fish, shellfish and sea vegetable farmers with the experience, 
knowledge, skills, scars and persistence to make this happen.
                                 ______
                                 
   Written Comments submitted by the San Diego Unified Port District
    In follow up to the testimony that you heard from our stakeholders 
and colleagues on January 30, 2018, the San Diego Unified Port District 
(District) would like to provide additional comments regarding 
developing aquaculture opportunities as public private partnerships.
    The District serves the people of California as a special district, 
balancing multiple uses on 34 miles along San Diego Bay spanning five 
cities. Collecting no tax dollars, the District manages a diverse 
portfolio to generate revenues that support vital public services and 
amenities.
    The District champions Maritime, Waterfront Development, Public 
Safety, Experiences and Environment, all focused on enriching the 
relationship people and businesses have with our dynamic waterfront. 
From cargo and cruise terminals to hotels and restaurants, from marinas 
to museums, from 22 public parks to countless events, the District 
contributes to the region's prosperity and remarkable way of life on a 
daily basis.
Background
    As you heard from Mr. Don Kent during oral testimony, on October 8, 
2014, Rose Canyon Fisheries (RCF) submitted permit applications to the 
U.S. Army Corps of Engineers (ACOE), and the U.S. Environmental 
Protection Agency (EPA) for a fish farm to be located in Federal 
waters, 4.5 miles off the coast of San Diego, CA. This represented the 
third, but most comprehensive attempt at permitting for an offshore 
fish farm in California since 2002.
    In the ensuing months RCF experienced multiple delays due to a lack 
of Federal agency coordination, including a debate on which agency 
(ACOE or EPA) should take the lead agency role in coordinating the 
National Environmental Policy Act (NEPA), a critical step in moving the 
applications forward Each agency did initiate their own Notice of 
Intent's (NOI) to begin processing applications including public 
scoping processes, and the EPA did agree to become the lead agency in 
February of 2015. However, by June of 2016, the EPA had cancelled their 
agreement to become the lead agency and the ACOE informed RCF that it 
would deny their Section 10 Permit application based on concerns about 
navigation cited in the Navy's original comments, despite the same 
comments that suggested the farm location move slightly to the north to 
minimize potential interference with Naval operations. By the end of 
2016, NOAA Fisheries Regulatory Branch offered to step in and be the 
lead agency on the NEPA review for the RCF permits. While this was a 
welcome and significant step forward, the regulatory quagmire and 
interagency inaction resulting from the lack of a clear sense of 
priority and efficiency amongst agencies continued. In April 2017 (30 
months following application submittal), the District intervened and 
hosted a meeting with the National Oceanic and Atmospheric 
Administration (NOAA), the U.S. Navy, and the ACOE. The U.S. Navy re-
iterated its support for the proposal, and while the ACOE was still 
reluctant, it did agree to RCF updating its application materials to 
reflect the new site location and re-submitting an application package.
    In August 2017, the District hosted the first-ever, interagency 
pre-application meeting for an offshore aquaculture permit application 
in the U.S. NOAA, now officially the designated lead agency, organized 
the meeting which included representatives from NOAA, ACOE, EPA, U.S. 
Coast Guard, U.S. Navy, California Coastal Commission, California 
Department of Fish and Wildlife, Rose Canyon Fisheries, and the 
District.
    Through the District's Blue Economy Incubator Program, the District 
is exploring a partnership with RCF, which has the potential to be a 
regional-based model and an early proving ground that will provide an 
invaluable database of information and advance the aquaculture industry 
nationwide. The District has been asked to act as a Cooperating Agency, 
along with NOAA, ACOE, and EPA for the National Environmental Policy 
Act (NEPA) review for this project. Next steps are currently being 
discussed, along with a draft MOU that outlines each agencies roles and 
responsibilities.
The Opportunity for Aquaculture
    There is a clear opportunity and critical need to support 
development of sustainable domestic marine aquaculture industry. The 
U.S. currently imports over 91 percent of the seafood it consumes, yet 
only three percent of U.S. domestically produced seafood comes from 
aquaculture. In economic terms, these imports consistently contribute 
to a nearly $14 billion domestic seafood trade deficit each year. U.S. 
based aquaculture advocates, however, believe we can reverse that trend 
and allow aquaculture to flourish right here at home. The U.S. could 
and should be self-sufficient in seafood production with the goal of 
becoming a net trade exporter of seafood by 2050.
    The largest opportunity for U.S. aquaculture development lies 
offshore, but the required Federal permitting process is poorly 
defined. This has caused domestic investment in aquaculture to be 
driven to other countries. Besides being the major contributor to our 
trade deficit, this also sends U.S. seafood production and distribution 
industry jobs to other countries, thereby losing a major economic 
opportunity for the U.S. As you heard during oral testimony, for every 
one job created on the waterfront, two additional indirect jobs are 
created elsewhere downstream. The import deficit also means that the 
U.S. is buying seafood that may not be grown to our rigorous health and 
environmental standards. There are numerous examples of U.S. investors 
growing salmon in Chile, red drum, striped bass and yellowtail in 
Mexico and cobia in Panama, simply because those countries welcome 
their investments. Any one of these companies would rather be working 
in U.S. waters, but they cannot get the permits required from the 
Federal Government that they need to locate and operate U.S. farms.
The Port of San Diego's Role
    Aquaculture must be tested and proven to be economically, 
environmentally and commercially viable. This takes time, money, 
expertise and regulatory wherewithal. The District has positioned 
itself uniquely to supports efforts to advance State and Federal 
policies to increase aquaculture production and deliver a safe, secure 
and sustainable seafood supply for California and the Nation. Ports can 
and are increasingly playing a critical role in the development of 
sustainable aquaculture, given their familiarity and expertise in the 
permitting and entitlement process for a variety of coastal and ocean 
uses; the unique role they often play as a landlord, operator and/or 
regulator, and as champions of the blue economy. As the state-
legislated trustee of tidelands (i.e., land and water) around San Diego 
Bay, developing sustainable domestic aquaculture helps fulfill the 
District's public trust responsibility to promote fisheries and 
commerce, as well as aligning with its mission to enhance and protect 
the environment.
    As the state-legislated trustee of tidelands (i.e., land and water) 
around San Diego Bay, developing sustainable domestic aquaculture helps 
fulfill the Port's public trust responsibility to promote fisheries and 
commerce, as well as aligning with its mission to enhance and protect 
the environment.
    San Diego could support the development of an offshore aquaculture 
industry, which could become a $1 billion per year industry with only a 
nominal percentage of state or Federal waters leased from the 
government. A properly constructed and managed industry would provide a 
safe, secure, and stable supply of healthful seafood to the region, 
alleviate some pressure on wild fish stocks, and help conserve the 
remaining working waterfront, all with acceptable impacts on the 
environment and other ocean uses. Equally as important, an aquaculture 
facility in our region could prove the viability of the domestic 
aquaculture industry and act as a catalyst for growth of the industry 
nationwide.
The Pressing Need for Congressional Action
    To address the challenges above, it is essential to have a 
predictable and systematic approach to permitting and leasing within 
Federal waters to support and accelerate growth of a domestic 
aquaculture industry. As our colleagues and stakeholders stated during 
their testimony, the lack of Federal leadership in the permitting 
process not only slows the process, but hampers access to private 
investment, research, and development of the industry as a whole. The 
District supports legislation that provides NOAA with a leadership role 
in aquaculture development for our nation, including but not limited 
to:

  <bullet> Designating NOAA as the lead agency for aquaculture in 
        Federal waters and creating a streamlined regulatory process,

  <bullet> Providing support for the National Marine Aquaculture 
        Initiative (NMAI), including a mechanism for long term research 
        and development support, and

  <bullet> Facilitating regional projects in support of sustainable 
        offshore aquaculture industry Development

    We have worked with NOAA over the years in support of 
environmentally and economically important issues that affect our 
region and our Nation and very much look forward to engaging with the 
Department of Commerce to advance sustainable offshore aquaculture in 
our Nation.
The Time to Act Is Now
    The time is ripe for a forward-thinking strategy that embraces our 
natural resources. After all, our Nation's independence depends on our 
ability to be self-reliant, and not depend on the resources of other 
nations. We believe that the solutions to our challenges are home-
grown, and in San Diego, we intend to play a role in crafting those 
solutions. The District stands ready to commit our resources and 
experience in this area in collaboration with our partners and 
stakeholders. We have the expertise, infrastructure, relationships and 
marine based regulatory experience needed to substantially contribute 
to this successful venture. We are hopeful that the Department of the 
Interior and the current administration agrees with our assessment on 
aquaculture and can provide resources and regulatory assistance.
    The District stands ready to work with the Department of Commerce 
and other Federal agencies involved in the permitting process to 
advance aquaculture in our Nation and demonstrate the sustainable 
development of a domestic seafood industry that both creates jobs and 
lowers our dependence on seafood imports.
    We thank you for your leadership on these issues and look forward 
to working with you on behalf of the United States' interests and the 
benefit of all those we serve. If you have any questions please do not 
hesitate to contact the President/CEO, Randa Coniglio at 619-686-6201, 
or Job Nelson, Vice President, External Relations at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="640e0a0108170b0a24140b16100b0217050a000d01030b4a0b1603">[email&#160;protected]</a> or 619-686-7274
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                              Mark Luecke
    Question 1. Is there a link between two reasons for slow domestic 
growth of aquaculture you identified, namely the ``unavailability of 
investment capital to construct more fish production facilities'' and 
``an inefficient regulatory pathway permitting fish production 
facilities''?
    Answer. There is a direct link between an inefficient regulatory 
pathway permitting fish production facilities and the unavailability of 
investment capital to construct more fish production facilities, 
leading to slow domestic aquaculture growth.
    Capital sources, such as private equity investors and banks, will 
only provide capital to projects where there is (1) a clear 
understanding of risk and (2) a clear plan to manage that risk in order 
to generate a reasonable return on their invested capital. Given the 
current inefficiency and uncertainty experienced by organizations 
attempting to permit fish production facilities, capital sources are 
unable to obtain a good understanding of the regulatory risk, much less 
outline a regulatory management plan, and therefore, they do not place 
their capital at risk.
    This inefficiency and uncertainty stems from the lack of a clear 
regulatory pathway to place and retain fish production facilities in 
service. Without a defined lead agency at the Federal level for 
environmental review and approval of these projects, the U.S. will 
continue to experience a large and growing trade deficit in this 
critical food category.
    Private capital sources will simply not fund projects where there 
is inefficiency and uncertainty.

    Question 2. Should permits or leases for marine aquaculture 
production facilities be of a long enough duration for investors to 
have the opportunity to see a return on their investment?
    Answer. It is imperative that permits and leases for marine 
aquaculture production facilities be no less than ten (10) years, and 
preferably twenty (20) years, with an opportunity to extend that time 
period if all conditions of the permit and/or lease are being met.
    Quite simply, if permits or leases are not of a long enough 
duration for capital sources to generate a reasonable return on their 
invested capital, they will simply place capital in other projects in 
other segments of the market. This will cause the U.S. to continue to 
experience a large and growing trade deficit in this critical food 
category.
    Incentives for capital sources to participate in the domestic 
aquaculture market must be established to stimulate its growth, 
starting with long-term permits and leases.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                            Dr. Kelly Lucas
    Question 1. What type of assurances--particularly related to 
permitting--do aquaculture businesses and entrepreneurs require to make 
offshore aquaculture more attractive to investors?
    Answer. Businesses need regulatory certainty to reduce the risk of 
investment. They need to know they can get a permit. There needs to be 
a streamlined, transparent, permitting process. They need one agency to 
take ownership of the permitting process. I would suggest NOAA can lead 
the process and can lead the necessary environmental reviews. Other 
agencies will still need to supply the permits necessary by law, but it 
would be efficient to have a designated agency coordinating the 
process. Industry needs permits that are long enough in terms of 
duration that they can not only capitalize the expenses, but they can 
see a return on their investment. They need certainty that they will be 
able to renew their permits as long as they abide by the regulations, 
monitoring and reporting requirements.

    Question 2. How can marine aquaculture be compatible with and 
supportive of the commercial fishing industry?
    Answer. First, we need make sure the message is clear that 
aquaculture is not trying to replace commercial fishing. World-wide, 
wild capture fisheries is stagnant and has been since the 1990s. We are 
fishing at maximum sustainable yield and in some cases over sustainable 
yield. In order to meet the increasing demand for seafood, aquaculture 
will be necessary but it will also be necessary for us to continue to 
have sustainable wild-capture fisheries. Offshore and nearshore 
aquaculture shares a lot of the same infrastructure and equipment in 
terms of working waterfronts, processing plants, seafood markets, boats 
and boat repair with the commercial industry and working together both 
industries can benefit.

    Question 3. What are the key research areas we ought to invest in 
to continue U.S. leadership in marine aquaculture?
    Answer. We need to invest in larviculture, genetics, aquatic health 
management, feeds, advanced technology and engineering. The development 
of hatchery capacity and refinement of culture techniques is vital to 
offshore development. Commercial operators need a reliable and 
consistent source of disease free larval fish. Some larval fish species 
can be reliably supplied, many other species that are high value and 
fast-growing lack sufficient research development. The use of selective 
breeding as a tool to increase production is far behind the plant and 
farm animal industries. Selective breeding of fish using genetics to 
aid selection can generally be completed in less time than breeding of 
farm animals. Domestication of new species and offshore culture will 
require monitoring and adaptive health management plans to reduce and 
prevent disease and outbreaks. Although we have made advancements in 
fish feed and have reduced reliance on forage fish, we should continue 
to identify alternative sustainable feeds for large-scale aquaculture. 
Improvements in net and cage technology have decreased chances of 
escapes; however, we can continue to improve containment systems with 
new materials and with remote detection technology. Unmanned systems 
and artificial intelligence can aid operators in task such as cleaning 
cages, feeding fish and detecting potential problems.

    Question 4. Does regulating marine aquaculture under the Magnuson-
Stevens Act work?
    Answer. There is great concern among the industry and others that 
the Magnuson-Stevens Act (MSA) in not the correct tool to regulate 
marine aquaculture. Whereas the offshore aquaculture industry shares 
some things in common with the commercial fishing industry, regulating 
domesticated fish in a comparable manner as wild fish does not work. 
MSA is not the correct mechanism for regulatory elements such as 
permitting and aquaculture facility management and monitoring.

    Question 5. Why is genetics research important for marine 
aquaculture, particularly with respect to fish production, fish health, 
and interactions with wild fish stocks?
    Answer. Genetic level information and genome sequencing is 
important for wild fish stocks and to aid in aquaculture development. 
Population level genetic research has contributed to knowledge of how 
fish are structured into reproductive populations and how these 
populations are distributed. At TCMAC we use genetics to provide 
information about local populations of spotted sea trout. We use this 
information to isolate broodstock, ensure genetic diversity and release 
hatchery reared fish back into their watershed. The genetic markers can 
also be used to indicate if a captured fish was reared in the hatchery. 
Additionally, we use genetics to help assist with selection of species 
for breeding for commercial aquaculture applications. These genetic 
tools can aid in selecting against a genetic disorder or condition or 
selecting for a value-added trait such as fast growth. These tools can 
also be used to select for entire genomes. The use of selective 
breeding as a tool to increase aquaculture production is far behind the 
plant and farm animal industries and selective breeding of fish can 
generally be completed in less time than breeding of farm animals.

    Question 6. Should permits or leases for marine aquaculture 
production facilities be of a long enough duration for investors to 
have the opportunity to see a return on their investment?
    Answer. The duration of the lease and/or permits should be long 
enough for industry to capture the cost of capital and make a profit on 
their investment.

    Question 7. Are there environmental benefits to locating marine 
aquaculture farms further offshore, such as in the exclusive economic 
zone?
    Answer. Open-ocean aquaculture can reduce some environmental 
concerns that we see in nearshore environments by siting farms away 
from sensitive habitats in deep waters with adequate currents the 
potential pollution would be reduced.

    Question 8. Would a permit to operate a marine aquaculture facility 
be sufficiently secure to provide investors with the certainty to 
invest in a marine aquaculture operation?
    Answer. There is concern with the industry that a permit only gives 
an individual or company the authority to operate and does not provide 
the property rights necessary to provide business security. If a 
company was conducting aquaculture in Mississippi state waters, the 
company would need a lease of the water bottoms and would also need a 
permit to conduct the aquaculture activity. Several states have similar 
models of requiring both a lease and a permit.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            Dr. Kelly Lucas
    Question 1. General Marine Aquaculture: What are your top 
recommendations for building a marine aquaculture industry while 
preserving our environment and traditional fisheries?
    Answer. Businesses need regulatory certainty to reduce the risk of 
investment. Congress should enact legislation to provide a regulatory 
framework for offshore aquaculture. The regulatory framework should be 
structured to provide an avenue for permit approval. One agency should 
be the lead for the permit process. I would suggest NOAA can lead the 
process and can lead the necessary environmental reviews. Other 
agencies will still need to supply the permits necessary by law, but it 
would be efficient to have a designated agency coordinating the 
process.
    Supporting aquaculture development by similar mechanisms used to 
support agriculture can help industry grow. The agriculture industry 
grew tremendously from public support of research occurring at 
universities, state and Federal laboratories and research stations 
spread across the Nation to bring techniques directly to farmers. 
Aquaculture can benefit from a similar approach of competitive research 
funding and extension funding to advance research and development. 
Advancement of aquaculture, especially selective breeding, health 
management and culture techniques can take multiple years for 
significant gains and long-term funding programs will be critical to 
success.
    Aquaculture can help expand our supply of local, safe, sustainable 
seafood. Fish are more efficient converters of feed to meat and the 
ability to produce a steady fish supply can meet the increasing demand 
for protein. We have robust environmental laws in the United States 
that help ensure we operate in environmentally safe manner. We also 
have regulations regarding fish health and treatment of fish for 
consumption. Open-ocean aquaculture can reduce some environmental 
concerns that we see in nearshore environments by siting farms away 
from sensitive habitats in deep waters with adequate currents the 
potential pollution would be reduced. We also should continue to grow 
land-based and near-shore aquaculture. Land-based aquaculture in 
recirculating closed loop systems is advantageous for numerous reasons. 
Some benefits of the controlled environment in recirculating systems is 
the increased biosecurity and ability to increase production through 
year-round growth. Water reuse through filtration and sterilization 
also increases the sustainability of closed-loop recirculating systems. 
The ability to locate the facilities in areas of market supply helps 
create local jobs and supplies safe, fresh, local, seafood for 
consumers. Near-shore aquaculture in the United States has been 
increasing. Shellfish aquaculture has increased significantly along all 
United States shorelines and seaweed aquaculture have been increasing 
in several regions of the United States. This un-fed aquaculture in 
near-shore locations has environmental benefits of improving water 
quality and providing habitat.
    We need to think of aquaculture as diversification and not a 
replacement for commercial fishing. We need make sure the message is 
clear that aquaculture is not trying to replace commercial fishing. 
World-wide, wild capture fisheries is stagnant and has been since the 
1990s. We are fishing at maximum sustainable yield and in some cases 
over sustainable yield. In order to meet the increasing demand for 
seafood, aquaculture will be necessary, but it will also be necessary 
for us to continue to have sustainable wild-capture fisheries. Offshore 
and nearshore aquaculture shares a lot of the same infrastructure and 
equipment in terms of working waterfronts, processing plants, seafood 
markets, boats and boat repair with the commercial industry and working 
together both industries can benefit. For recreational anglers off-
shore and near-shore aquaculture creates habitat that attracts fish. 
Allowing anglers to fish near these structures can provide increased 
fishing opportunities. In addition to that bait fish can be cultured 
that benefit both the recreational and commercial industries. Both the 
commercial and recreational communities have benefited from stock 
enhancement and aquaculture-based restoration efforts.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                           to Dr. Kelly Lucas
    Question 1. Las Vegas receives 42 million annual visitors and has a 
local population of around two million. We depend on a responsible and 
clean level of drinking water sources. Unfortunately we're experiencing 
record-low water levels at Lake Mead. How can we ensure a balance of 
creating more aquaculture opportunities in the southwest, while also 
maintaining the dependable water sources we desperately need to survive 
and thrive?
    Answer. One suggestion I can offer is diversification of 
aquaculture to include recirculating aquaculture systems. Recirculating 
aquaculture systems operate by filtering water and cleaning the water 
to remove waste and reuse the water. Often the removed waste products 
can be used for alternate activities such as growing plants. Ponds can 
also be outfitted in ways to recirculate and filter water for reuse.

    Question 2. Electricity is obviously required for pumps used in 
aquaculture and aquaponics. Are there any studies on the use of 
renewable sources of energy to help maintain the power to these 
operations?
    Answer. The cost of electricity can be significant for aquaculture 
operations and businesses look for ways to reduce cost. One example of 
using renewable energy is the use of sunlight to grow algae. The algae 
can be the end product or can be used as feed for other aquaculture 
activities such as feed in a hatchery. Another example is the use of 
the tide to tumble oysters in a bag to create the desired oyster shell 
growth. Also, solar energy can be used for automated fish feeders and 
monitoring systems. There is ongoing research for using renewable 
energy in aquaculture and as renewable energy technology increases so 
will numerous uses for this technology in aquaculture.

    Question 3. Are there opportunities to utilize geothermal 
technologies specifically that you have seen in your work?
    Answer. Geothermal energy is used in aquaculture to heat water for 
ponds, raceways and tanks. Geothermal energy can also be used to heat 
greenhouses and aquaculture facilities.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                             Barton Seaver
    Question. From your experience in Maine, how can marine aquaculture 
be compatible with and supportive of the commercial fishing industry?
    Answer. In Maine, as is true in many fishing communities, we have 
seen the proud tradition of wild fisheries atrophy in the wake of 
mismanagement, foreign competition, and changing habitats. And yet 
these communities somehow remain resilient, finding ways to continue to 
pursue the iconic profession of fishing on the open water.
    Wild fisheries have a long and strong tradition of apprenticeship, 
where the older generation passes its skills and knowledge on to the 
upcoming generations through side-by-side collaboration. But a serious 
issue facing wild fisheries is the graying of the fleets. As rural 
communities and less profitable fisheries are less able to attract 
young labor the average age of fishermen is increasing. The aquaculture 
industry represents an exciting combination of technology, innovation, 
environmental stewardship and sustainable food production that can 
attract younger residents.
    But this does not have to devolve into a competition between the 
two industries, between generations. Rather, it is a perfect 
opportunity for the experienced fishermen and women to serve as mentors 
to the budding aquaculturists, sharing their knowledge of the local 
ecosystems, best economic and sustainability practices, and navigation 
of the supply chain. By participating in the growth of a young 
aquaculture industry, experienced fishermen and women are celebrated 
for their heritage and can serve as catalysts to a new economy, 
fostering the emerging workforce that will settle into coastal 
communities and maintain their vibrancy.
    In Maine, there are over 4,000 individual, owner-operated 
lobstermen and women who already possess the transportation equipment, 
have established a sophisticated cold storage supply chain, and built 
the markets to successfully distribute and sell seafood. Much of the 
risk and cost involved in an aquaculture start-up is the creation of 
these systems beyond the farm itself. The existing support systems, as 
well as the people already working the water could allow rural coastal 
economies to diversify into farming to augment their wild capture.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Barton Seaver
    Question 1. General Marine Aquaculture: What are your top 
recommendations for building a marine aquaculture industry while 
preserving our environment and traditional fisheries?
    Answer. It is my belief, and I can point to many examples of 
collaboration in my home state of Maine, that wild fisheries and marine 
aquaculture not are inherently at odds. The existence of one, does not 
diminish the other in anyway. But to answer your question more 
directly, I do have recommendations that could help both thrive at the 
same time.

  <bullet> I recommend the United States heavily invest in the 
        development of modern aquaculture much in the same way it 
        invested in the development of the agriculture industry post 
        World War II. Making more seafood available to more Americans 
        will raise the consumer confidence in, and the market value of, 
        both wild caught and farmed seafood. A made-in-the-USA label is 
        a powerful mark of civic and economic virtue. Investing in 
        aquaculture as a national priority will send a very clear 
        message calling needed attention to the opportunities for this 
        Nation to better utilize our marine resources.

  <bullet> I recommend that we as a nation ensure that best fish 
        farming practices are followed to protect the environment, wild 
        fisheries and our citizenry. But I also recommend that specific 
        regulations in any given region be implemented with a firm 
        understanding of that region's maritime culture and heritage.

  <bullet> I recommend the government invest in community and economic 
        development programs based on an apprenticeship model through 
        which wild fishery and aquaculture participants can find 
        mentorship opportunities in each other and create cross-
        industry collaborations.

    Question 2. Mr. Seaver, as a restaurant owner and chef you have 
seen first-hand the expectation consumers have about the quality, 
origin, and nutritional value of the food they eat. How would consumers 
benefit from more marine aquaculture?
    Answer. It is important to recognize that seafood is categorically 
one of the healthiest foods humans can eat. As a matter of public 
health, we must work to increase seafood consumption just to meet our 
own government's recommendations for twice weekly consumption of fish 
for every American. A limiting factor in seafood consumption to date is 
a neutral, or often negative, perception of farmed seafood. It is not a 
stretch to say that developing the United State aquaculture industry as 
a trusted source for seafood would lead to increased consumer 
confidence and consumption.

    Question 3. What kind of regulations or standards for marine 
aquaculture do you see as necessary to preserve the health and safety 
of consumers and the environment?
    Answer. There are excellent standards for industry best practices 
that are constantly evolving due to emerging science and technological 
innovation. While I am not an expert and defer to others on specific 
regulations, I can state with confidence that we know how to farm 
seafood in environmentally friendly ways that produces healthy food.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                             Barton Seaver
    Question 1. Senator Wicker and I worked together to help create the 
Seafood Import Monitoring Program, which was just fully implemented at 
the beginning of this year. This program will help reduce Illegal, 
Unreported, and Unregulated (IUU) fishing for specific species because 
it requires importers to include data on where and when the fish was 
landed and who landed it. However, this data is not consumer-facing. In 
your restaurants, you highly valued traceability and trained your staff 
to tell the story of how each customer's fish arrived on their plate. 
How can we expand these stories beyond high-end restaurants and make 
them more accessible to consumers on a daily basis--from fast food to 
supermarkets?
    Answer. I believe traceability from dock to dish must take many 
forms, each one suited to the particular type of operation in which it 
is practiced.
    In white table cloth restaurants, we have the luxury of extended 
customer engagement and the flexibility of daily changing menus that 
reduce the risk of offering new products. We have the time to tell 
every detail of the fish's origin, but if it doesn't sell well, we can 
take it off the menu the next day without too much monetary loss.
    But in the case of a large food service operation--where the 
customer interaction is shorter and purchasing a variety of seafood 
products comes at a cost. Often there is a lower level of culinary 
skill and thus less ability to adapt to the nuances of variable 
sourcing. In such operations it is common to find menus that 
consistently list a single species that must be sourced from wherever 
it is currently available. In such cases it is more appropriate to 
communicate an operator's commitment to a considered set of civic and 
environmental values regarding the fish being served. It is rare in 
such scenarios that it is feasible to list the specific fishing boat 
that captured it. The solution is to commit to sourcing from certain 
regions where the fish is sustainably managed and to communicate region 
or provenance as the best means to connect the ingredient back to the 
producer community.
    The point is to elevate American seafood in general as a trusted 
seal of quality and sustainability. Just as the Magnuson-Stevens Act 
serves to validate American-caught seafood as sustainable, so would a 
robust national aquaculture policy based on best practices and the best 
science provide the same level of confidence in farmed seafood.

    Question 2. The Cape Cod Commercial Fishermen's Alliance in 
Massachusetts has been working with the seafood distribution company 
Sea to Table to build domestic markets for locally caught spiny 
dogfish. Spiny dogfish is not well known to American consumers, but is 
delicious in fish and chips, or in tacos. How can we expand these sorts 
of programs so that Americans can enjoy local, plentiful fish that they 
might not currently recognize by name or appearance?
    Answer. Dogfish has long been the bane of fishermen in New England. 
It was an unwelcome catch when the profitable cod was the target. And 
despite its abundance and affordable price it has never enjoyed any 
significant popularity at market. To counter this our government 
undertook multiple efforts to advertise its qualities, even promoting 
its use as a ``fighting food'' for those on the home front. It was even 
marketed under a variety of more romantic names such as Harbor Halibut, 
Mustel, and Cape Shark.
    Personally I never have understood the problem with the name 
dogfish. We eat plenty of catfish in this country with no complaint. 
But these efforts never amounted to any lasting economic impact for 
fishermen. Although history would suggest that there is something less 
desirable about dogfish, it is simply due to a lingering cultural bias 
that has unfairly regarded this truly delicious fish as a stain upon 
creation. But as has been proven by the Sea to Table efforts, when 
stripped of any stigma, consumers find it to be among the tastiest of 
all the white-fleshed fish varieties common to New England.
    And that leads to my recommendation that we educate chefs and 
consumers about seafood by focusing on the culinary qualities of the 
fish rather than the species name. Dogfish cooks the same as cod as 
haddock as cusk as hake . . . While a consumer might not know what hake 
tastes like they certainly know what flaky white-fleshed fish tastes 
like. The best place to implement such education programs is in college 
and university food service operations. Students are often willing to 
experiment and try new ingredients. And it offers a logistically simple 
but high volume and high impact means to sell product and to influence 
future consumers. But foodservice operators are hesitant to take risks 
on serving something the students will reject and end up wasting. 
Education initiatives subsidized by state extension or Sea Grant 
programs can help reduce the financial pressure and risk in introducing 
new fish. And once the students approve, the market is there, and 
companies like Sea to Table and community organizations like the CCCFA 
are then able to supply those markets and connect students with 
producers.
    Seafood cookery is unnecessarily complicated by our irrational 
preferences for a single species or another. I know too many people who 
swear by rockfish but swear off striped bass (they are actually the 
exact same fish). When we start with the familiar, say a fish taco, all 
of a sudden the dogfish inside isn't so exotic. I by no means condone 
fish fraud. We must always label seafood as the species it is. But why 
try to sell dogfish when you can much more easily sell a fish taco made 
with dogfish. Sell the dish and not the fish. It's a simple method that 
allows consumers to engage with fisheries in a rational way. Instead of 
demanding of the oceans and of fishermen only cod, we must ask of them 
what they are able to provide. In doing so we shift the entire economy 
of fisheries from one based on irrational demand to one based on 
sustainable supply. Sustainable meaning that it is often better for the 
environment and it allows fishermen to earn the deserved value of 
whatever delicious fish they happen to haul up.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                            to Barton Seaver
    Question 1. It is not a stretch to say that developing the U.S. 
aquaculture industry as a trusted source for seafood could lead to 
increased consumer confidence and consumption, correct?
    Answer. Yes, I believe that to be true. A robust American 
aquaculture industry, regulated for safety and environmental 
sustainability, would result in increased consumer confidence in and 
consumption of American seafood.

    Question 2. How we do ensure that low-income individuals and 
families can still have access to this dietary benefit?
    Answer. As the aquaculture industry matures, there will be 
technological advances made and efficiencies realized that will reduce 
the cost of American seafood to the consumer. It is also important to 
note that aquaculture isn't limited to farming fish in the oceans. 
There are technologically advanced self-circulating systems used to 
farm many species of fish that can be set up in an old warehouse in 
Detroit or in an empty strip mall in rural American. Not only will 
these aquaculture operations provide increased access to fish in these 
areas, they could also result in employment opportunities. There are 
great examples of these systems such as an urban farm in Milwaukee 
where visionary community member Will Allen has proven both nutrition 
and community benefits result from these efforts.

    Question 3. Furthermore, how can we make it economical enough to 
allow for its viability in food assistance programs and its inclusion 
in the school lunches that often is the main source of nutrition and 
comprehensive meals for millions of American youth?
    Answer. Given the prodigious potential for aquaculture production, 
strong governmental support for growth in this industry, much like was 
done for agriculture commodities, could lead to a scale of production 
that will enable the farming of healthy, nutritious seafood that will 
fit within the tight budgetary parameters of food assistance and school 
lunch programs. There are great programs already being implemented for 
getting more wild-caught seafood at affordable prices into the schools, 
institutions, and food assistance programs in both Massachusetts and 
Maine. These programs, like the Mass Farm to School initiative that 
embraces seafood as a basic tenet of its program (https://
www.massfarmtoschool.org/announcement/sea-to-school-takeaways/) could 
serve as models for farmed fish distribution and consumption in those 
venue across the country.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                             Donald B. Kent
    Question 1. What type of assurances--particularly related to 
permitting--do aquaculture businesses and entrepreneurs require to make 
offshore aquaculture more attractive to investors?
    Answer. As in any enterprise, investors are looking for some 
assurance of an investment return, and to realize that return, permits 
are needed to not only allow the business to operate, but to also shape 
the scope of the operation and to define operational protocols. Here in 
the U.S., we have many of the required operational protocols understood 
because of existing laws and regulations for operating in U.S. waters 
and for growing food, but what we lack is any assurance of acquiring 
the permits because the permitting process is not clearly delineated 
and many years and millions in investment can be wasted trying to 
acquire permits. In juxtaposition to this is Mexico, where a very clear 
permitting path is laid out, and permits can be acquired within a six 
month time frame at a cost of about $50,000. Because of this 
reliability, American investors seek Mexican partners and operate their 
farms in Mexico and then sell the seafood back into the U.S., even 
though the resulting product may not meet our rigorous environmental 
and public health regulations. I do not mean to suggest that imported 
seafood is unsafe, only that it is more difficult to ensure that it 
meets our standards if we are not growing it ourselves. What is needed 
is a consistent, well-defined permitting pathway that builds upon 
existing U.S. laws and regulatory processes and that can be applied 
across the Nation so to allow investors. This pathway should:

  <bullet> Reiterate the authorities assigned by existing law to 
        agencies (e.g., issuance of Section 10 permit by U.S. Army 
        Corps of Engineers, issuance of NPDES permit by EPA).

  <bullet> Require the issuance of an Aquaculture Permit by NOAA 
        Fisheries for any farm located in Federal waters outside state 
        coastal jurisdiction.

  <bullet> Reaffirm State's authorities and responsibilities under the 
        CZMA.

  <bullet> Establish that NOAA Fisheries should be the lead agency for 
        NEPA review based on its aquaculture, marine resource, and NEPA 
        expertise

  <bullet> Define the criteria by which the extent of the NEPA review 
        (i.e., Environmental Assessment or an Environmental Impact 
        Statement) will be decided.

    Question 2. How would ports and working waterfronts benefit from a 
growing marine aquaculture industry?
    Answer. Our nation's marine fisheries are well managed and many 
that had been over-exploited are now harvested sustainably thereby 
providing longer-term security in the supply of those harvested 
species. But, we all know relying only on domestic fisheries isn't 
enough, especially if we have had to curtail harvests to ensure long-
term sustainability. Aquaculture holds the promise of keeping working 
waterfronts working.
    Much of the infrastructure needed to support commercial fishing 
(dock space for loading/unloading, ice machines, fish processing, fuel, 
covered storage space, etc.) is also needed for farming operations. The 
primary difference is that commercial fishers harvest wild fish and 
farmers harvest farmed fish and both need space on-shore to support 
their open ocean operations. By supporting both commercial fishing and 
farming, our Nation's ports will get a double return on their 
investment in this infrastructure and realize a far greater economic 
return as a result of job creation and support.

    Question 3. Can you describe in detail the employment opportunities 
offered by an offshore marine finfish aquaculture operation?
    Answer. Marine farms provide a wide range of opportunities for job 
creation. Direct jobs on the farm represent an opening for commercial 
fishers who have existing skill sets (piloting vessels in rough seas, 
harvesting fish, managing nets, etc.) that are needed for working in 
the open ocean environment. Besides the direct jobs on the farm raising 
fish, there are jobs associated with processing and distributing the 
farmed product, maintaining vessels, delivering feed and other business 
support activities. For the farm we propose off the coast of southern 
California, the San Diego Economic Development Corporation predicts 
that on top of the 72 jobs created by farm operations, an additional 
300 jobs would be created and supported by the farming operations. This 
seems consistent with studies conducted in Canada where they found that 
for every thousand tons of salmon production, there are 43 jobs created 
and supported over the long term. Using that rough estimator, a 
regional increase of 100 thousand tons of fish production in the open 
ocean would support over 4,000 new jobs in and around the farms' region 
of operations.

    Question 4. Would a permit to operate a marine aquaculture facility 
be sufficiently secure to provide investors with the certainty to 
invest in a marine aquaculture operation?
    Answer. Many industries rely on permits as their primary method of 
government regulation that guides their operations. For example:

  <bullet> Business permits issued by a municipality to operate in a 
        given community.

  <bullet> Specialty permits for truck drivers to operate long haul 
        vehicles across the Nation.

  <bullet> Licenses for certifying the qualifications of doctors, 
        lawyers, CPAs and other professionals.

    Permits are the interactive system by which our government 
regulates industry on a day-to-day basis. What is expected in permits 
from Federal agencies (U.S. Army Corps of Engineers, U.S. Coast Guard, 
EPA) for offshore farms are conditions to the permits developed to 
evaluate, avoid or mitigate and monitor for possible environmental 
effects and impacts to other users. These would be developed as part of 
the NEPA review and regulatory permitting process. As long as the 
conditions are not unnecessarily restrictive, then the resulting 
permits are adequate to allow appropriate farming operations.

    Question 5. Should permits or leases for marine aquaculture 
production facilities be of a long enough duration for investors to 
have the opportunity to see a return on their investment?
    Answer. Permits or leases HAVE to be of long enough duration to 
allow profitability. An offshore farming operation is capital intensive 
and the profit margins, like most farming operations, are not that 
high, so adequate time has to be allowed to permit a return on the 
investment. A typical scenario would require two years to acquire 
permits, a year of mobilization, and at least one year, probably two, 
for product to enter the market. A 2,000 ton farm would likely require 
and investment of at least$15 million, with annual sales not commencing 
until at least year five with profitability realized sometime after 
that. A ten-year permit would mean that a farm would only have three or 
four years to realize an investment return.
    Permits or leases should act like drivers' licenses:

        Here is the rule book to go with your license. Don't break the 
        rules, and we'll let you keep driving. The rules may change, 
        and you will have to adapt to the changes, but you need to 
        follow them if you want to keep driving. We may ask you to 
        ``renew'' your license, but as long as you have a good driving 
        record and are still capable of driving the car, the State will 
        renew your license.

    A responsible farm operator, even after 20 years of business, 
should be able to continue farming without having to go through the 
entire permitting process again. If it is not significantly impacting 
the environment and is meeting the Nation's need for seafood, then 
permits should be renewed.
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Donald B. Kent
    Question 1. General Marine Aquaculture: What are your top 
recommendations for building a marine aquaculture industry while 
preserving our environment and traditional fisheries?
    Answer. I feel we have significant existing regulatory safeguards 
in place to ensure that a use of the EEZ for marine farming will not 
have adverse impacts on traditional fishing communities, the 
environment or other user groups. What is needed is a consistent, 
predictable, efficient permitting process. This would require:

  <bullet> Clearly defining the permits required to operate in the EEZ 
        and reaffirm the limits of the legal authorities of permitting 
        agencies to issue permits:

    <ctr-circle> U.S. Army Corps of Engineers permit under Section 10 
            of the Rivers and Harbors Act of 1899 (33 USC 403) which 
            prohibits the obstruction or alteration of navigable waters 
            of the United States without a permit.

    <ctr-circle> Clean Water Act authorizes the EPA to regulate point 
            sources that discharge pollutants into waters of the United 
            States through the National Pollutant Discharge Elimination 
            System (NPDES) permit program.

    <ctr-circle> The U.S. Coast Guard issues permits for Private Aids 
            to Navigation (PATON) which includes lighted structures, 
            lighted and unlighted buoys, RACONs (interactive RADAR 
            transponders) and fog signals, which are installed and 
            maintained by anyone other than the Coast Guard. Such a 
            permit would specify the navigational aids needed for an 
            offshore farm to avoid impacting the operations of other 
            vessels in the area.

  <bullet> A missing link at this time is a specified lead agency for 
        the requisite National Environmental Policy Act review for all 
        federally issued permits. When only one Federal permit is 
        required, then the permitting agency is required to conduct a 
        NEPA review to ensure that public concerns over prospective 
        environmental impacts are addressed. However, when multiple 
        Federal permits are required, as with offshore fish farms, then 
        the NEPA review should be combined into a single, coordinated 
        NEPA review process that is led by a ``lead agency''. The 
        resulting environmental review document can then be used to 
        condition the permits issued by the respective agencies. For 
        consistency across all coastlines, it is important that a 
        single agency be identified nationally as the lead agency for 
        the NEPA review. In my opinion, the lead agency should be NOAA 
        Fisheries for the following reasons:

    <ctr-circle> The majority of the environmental concerns regarding 
            fish farming are the direct responsibility of NOAA line 
            agencies:

    <ctr-circle> Impacts to protected resources like marine mammals, 
            endangered species, habitat areas of particular concern, 
            etc. are managed by NOAA Fisheries

    <ctr-circle> NOAA's National Ocean Service is responsible for 
            interactions with state coastal resource management 
            agencies under the Coastal Zone Management Act and provides 
            resources to coastal zone managers to adequately assess 
            potential impacts. States with approved management plans 
            would have review for ``consistency'' which is best 
            coordinated by NOAA.

    <ctr-circle> NOAA's NOS has developed an extensive array of tools 
            including:

  <bullet> GIS based tools that identify potential farming sites by 
        delineating bathymetric requirements needs while assessing the 
        potential for interactions with other user groups and/or 
        protected resources.

  <bullet> Photographic analysis systems that assess visual impacts of 
        farms to coastal residents and user groups

  <bullet> Water quality predictive models that evaluate site specific 
        characteristics (depth, current speed and direction, water 
        temperature, etc.) to assess potential impacts to the water 
        column and benthic habitats and mitigate them.

    <ctr-circle> NOAA Fisheries has the most comprehensive experience 
            in the subject area of aquaculture impacts as well as the 
            most experience in conducting NEPA reviews.

    <ctr-circle> Collectively, these actions will act to incentivize 
            American investors to keep their capital investments here 
            thereby creating a new paradigm for domestic seafood 
            production toward higher food security, lower transport 
            costs, more American jobs, a larger tax base and rebirth of 
            our working waterfronts.

    Question 2. Aquaculture Facility Siting: Mr. Kent, the ocean is 
very important to my state, especially for fishermen. As industries 
advance, we continue to see competing demands for the use of our 
Nation's waters. Where is the ideal location for an aquaculture 
facility and how should the government sort through competing ocean 
uses?
    Answer. I agree that the health of the ocean environment around 
Florida is by far the State's most important asset as it contributes 
significantly to the quality of life of Floridians and the millions of 
annual visitors and ocean health is critical to the Florida economy. 
Tourism, military operations, commercial and recreational fishing are 
all critical components of Florida's economy and are all reliant on 
maintaining a healthy ocean ecosystem.
    Relative to where to locate farms off the shores of any of our 
Nation's coastal states and the Great Lakes, NOAA's National Ocean 
Service has developed GIS based analytical protocols that can be used 
to answer that question. Bathymetric information exists in databases 
accessible to NOAA and can be used to identify areas where it is 
presently practical to site farms (e.g., between 100 to 300 feet of 
depth). Much of our Nation's EEZ is too deep to accommodate the present 
mooring technology used in offshore farming. After determining where 
farms can be practically located, other databases can be accessed to 
further refine the locations by identifying sites that have adequate, 
but not excessive, current flows which act to maintain water quality 
for fish health and avoid degradation of the environment. These areas 
can then be reviewed to avoid show sensitive habitats, user groups 
(fishing, energy production, military operations, transportation, 
etc.), navigational conflicts, migratory pathways and other possible 
conflicts. After this type of vetting process all of which could be 
conducted by Federal agencies (e.g., U.S. Navy, BOEM, U.S. Army Corps 
of Engineers, EPA, U.S. Coast Guard) interacting directly with NOS 
technical staff, the resulting areas should then be available with a 
far easier environmental review since the majority of the potential 
conflicts would have already been addressed in the site analysis 
process.

    Question 3. Technology Use: Mr. Kent, I am an advocate for 
capitalizing on new and innovative technology. How is technology being 
used in the monitoring and inspection of marine aquaculture? What types 
of systems could be used in Federal waters?
    Answer. Because of the rigors of the open ocean, farms located in 
Federal waters will need to be regularly inspected and maintained. 
Unlike fish farms located within enclosed embayments, offshore farms 
will need to withstand high wave and wind conditions not typically 
found in near-shore areas. Because of the relative depth (up to 300 
feet), it would be difficult, hazardous and expensive to rely solely 
upon SCUBA divers to inspect mooring and cage systems on a regular 
basis. Fortunately, over the past few decades there have been 
significant advances in the development, versatility and availability 
of remotely operated vehicles equipped with high resolution cameras and 
lighting that are capable of regular use at the required depths of 
operation. These ROVs can replace divers for the majority of the 
inspections required to maintain operational integrity and safety on 
offshore farms.
    Large volume cages are now available that can be submerged whenever 
weather becomes problematic. Feed systems are available that can feed 
multiple cages without wasting feed thereby reducing the potential for 
adverse impacts. Cleaning systems are available that keep nets clean of 
fouling organisms which decreases hydraulic drag and improves water 
flow. New RADAR transponder technologies are available for automatic 
warning and avoidance of potential collisions.

    Question 4. What have been the technological improvements over the 
last decade in reducing the environmental impacts of marine 
aquaculture?
    Answer. As mentioned above, computer based site analysis can reduce 
conflict with other user groups, minimize interactions with protected 
resources and ensure minimal, if any, impacts on water quality.
    Feeds are no longer completely reliant on fish meal as their 
primary source of protein and oil. Diets can use vegetative protein, 
protein from fish processing, bacterial protein from agricultural waste 
fermenters, black fly larvae grown on garbage and processing waste from 
other livestock sources.
    Simulation modeling can be used to site farms in locations where 
the depth and adequate current flow can combine to make the presence of 
farms chemically undetectable and thereby avoid any impacts on water 
quality.
    Farms can be sited far enough offshore as to make them practically 
invisible to people standing on the shoreline thereby avoiding 
aesthetic impacts to the coastal zone.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
